<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


.                                     
                         [H.A.S.C. No. 116-93]

          U.S. DEFENSE POSTURE CHANGES IN THE EUROPEAN THEATER

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 30, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-480                      WASHINGTON : 2021                     
          
----------------------------------------------------------------------------------- 

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                       Barron YoungSmith, Counsel
                  Kim Lehn, Professional Staff Member
                      Natalie de Benedetti, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     4

                               WITNESSES

Allvin, Lt Gen David W., USAF, Director for Strategy, Plans, and 
  Policy, Joint Chiefs of Staff..................................     6
Anderson, James H., Acting Under Secretary of Defense for Policy, 
  Department of Defense..........................................     5

                                APPENDIX

Prepared Statements:

    Anderson, James H............................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bacon....................................................    59
    Mr. Brown....................................................    60
    Mr. Conaway..................................................    59
    Ms. Escobar..................................................    60
    Mrs. Hartzler................................................    61
    Ms. Houlahan.................................................    59

Questions Submitted by Members Post Hearing:

    Mr. Carbajal.................................................    65
         
         
         U.S. DEFENSE POSTURE CHANGES IN THE EUROPEAN THEATER

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 30, 2020.
    The committee met, pursuant to call, at 12:01 p.m., in room 
200, Capitol Visitor Center, Hon. Adam Smith (chairman of the 
committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. We will call the meeting to 
order.
    I thank you all for being here this morning. And our full 
committee hearing is on U.S. defense posture changes in the 
European theater. We have two witnesses this morning, hopefully 
both here and present: Dr. James Anderson, who is the Acting 
Under Secretary for Defense for Policy for the Department of 
Defense; and Lieutenant General David Allvin, Director for 
Strategy, Plans, and Policy with the Joint Chiefs of Staff.
    Let me un-fog my glasses here for a second.
    I would like to welcome members who are joining today's 
markup remotely. Those members are reminded that they must be 
visible on screen within the software platform for the purposes 
of identity verification when joining the proceedings, 
establishing and maintaining a quorum, participating in the 
proceeding, and voting.
    Members participating remotely must continue to use the 
software platform's video function while attending the 
proceedings, unless they experience connectivity issues or 
other technical problems that render the members unable to 
fully participate on camera.
    If a member who is participating remotely experiences 
technical difficulties, please contact the committee staff for 
assistance, and they will help you get reconnected.
    When recognized, video of remotely attending members 
participating will be broadcast in the room and via the 
television/internet feeds. Members participating remotely are 
asked to mute their microphone when they are not speaking. 
Members participating remotely will be recognized normally for 
asking questions, but if they want to speak at another time 
they must seek recognition verbally.
    In all cases, members are reminded to unmute their 
microphones prior to speaking. Members should be aware there is 
a slight lag of a few seconds between the time you start 
speaking and the camera shot switching to you.
    Members who are participating remotely are reminded to keep 
the software platform video function on for the entirety of the 
time they attend the proceeding. These members may leave and 
rejoin the proceeding. If members depart for a short period for 
reasons other than joining a different proceeding they should 
leave the video function on.
    If members will be absent for a significant period, or 
depart to join a different proceeding, they should exit the 
software platform entirely and then rejoin it when they return.
    Members are also advised that I have designated a committee 
staff member to, if necessary, mute unrecognized members' 
microphones to cancel any inadvertent background noise that may 
disrupt the proceedings. Members may use the software 
platform's chat feature to communicate with staff regarding 
technical or logistical support issues only.
    Finally, remotely participating members should see a 5-
minute countdown clock on the software platform's display but, 
if necessary, I will remind members when their time is up.
    The only additional note that I would make on that is as 
you are asking questions, and even for the witnesses, when you 
are not actually speaking it is helpful to turn the microphone 
off because, believe it or not, with the microphone on it 
creates feedback up there and it gets confusing because then 
you have to go on and off and on and off. But, if you can do 
that, it is helpful.
    Well, I thank the witnesses for being here today, and the 
members for being present. I think this is a very important 
discussion. As we have heard a little while back, an 
announcement was made of a change in our defense posture within 
Europe. And I want to make clear at the outset that I think it 
is always appropriate to reexamine our posture around the 
world. This is a rapidly changing world, the threat environment 
is dynamic, and our assets and allies are also reasonably 
dynamic.
    There are opportunities to be found in looking at ways that 
we can better distribute our assets and our forces to meet 
those challenges. But I was concerned about the way this 
particular change in our posture was announced and is proposed 
to be implemented within Europe. There was an announcement, 
basically, of a need to reduce the troops in Germany by 12,000. 
That number did not seem to be tied to any particular 
requirement.
    And then, in addition to that there was the requirement 
that we get rid of all of our headquarters in Germany. The 
reasons for that were far from clear. So, the number seemed to 
be artificial.
    Certainly, as we look at our needs in Europe, and as we 
build and strengthen alliances with the relatively new Eastern 
European partners within NATO [North Atlantic Treaty 
Organization], there are clearly opportunities to build on 
those partnerships and, potentially, station U.S. troops in 
those Eastern European countries to improve our posture and 
better meet our defense needs, particularly with regards to 
deterring Russian aggression in that part of the world.
    I don't think this plan was particularly well thought out, 
and I am worried about a number of aspects of its 
implementation, the biggest one being the artificial number of 
pulling troops out of Germany. You know, where did that number 
from?
    And, in particular, when we were briefed, a few of us on 
the committee were briefed a month or so ago about this, the 
decision to move AFRICOM [United States Africa Command] out of 
Germany, which does not seem to make any sense. It is not that 
we couldn't have originally picked a better place in Europe, or 
a different place in Europe at any rate, but having picked 
Germany, and had AFRICOM there for the entirety of the command, 
the reasons for moving it don't seem to make sense. Except, as 
came out in the briefing, it was necessary to get to the 12,000 
number.
    That is not the way we should be making policy. And it is 
going to be very, very expensive.
    Now, on the European Command decision, we do have the 
presence in Mons, Belgium, that we have always had with SHAPE 
[Supreme Headquarters Allied Powers Europe]. And an argument 
could potentially be made. But, nonetheless, it is very 
expensive to move these, these command structures. And what 
does it truly net us?
    The second aspect of this, as you are aware, some of the 
forces that are being moved are, in a sense, being moved back 
to the U.S., and they are becoming rotational. That has an 
impact certainly on the members serving, but also on our 
presence in those countries and our ability to respond.
    Now, we have dramatically reduced the number of troops that 
we have in the European theater. I think at the height of the 
Cold War in the mid-1980s there was somewhere around 350,000 
U.S. troops stationed in Europe. And in the current 
environment, having 350,000 U.S. troops in Europe would not 
make any sense whatsoever. But, we reduced that number down, if 
I am correct, to roughly 62,000. So, so we have made that 
response.
    But if we didn't take some number of them and turn them 
into rotational troops, what does that do to our ability to 
meet our national security objectives in that part of the 
world. Because Russia is becoming more aggressive, not less. I 
think that is something that there is bipartisan consensus on. 
Certainly, their efforts in Ukraine have been very aggressive. 
Their efforts to disrupt democracy in any way that they can in 
Europe, and the U.S., and elsewhere have grown.
    So, I think our need to have a deterrence there is 
enormously important. And, you know, I also am concerned about 
the effect it has on our partnerships in Europe, because we 
definitely need friends and allies more than ever. And I feel 
very strongly that, as I think every member of this committee 
does, that the NATO alliance has served our country very well. 
And when we make these types of arbitrary decisions without 
working closely with our partners, that undermines that 
alliance.
    In every partnership and every alliance difficult things 
have to be done that maybe the partners won't like. But there 
is a way to do that. I do not, for instance, disagree at all 
that we should try to do everything we can to get our European 
partners to contribute more to the defense of Europe. I think 
that is appropriate. But, if we do things to undermine the 
alliance in what appears to be a gratuitous way without working 
with them, without listening to them, it undermines the 
strength of that alliance and plays right into Russia's hands.
    Because number one at the top of the list of the things 
that Russia wants to accomplish, reducing the power, cohesion, 
and strength of Western democracies is right at the top. They 
want to see us divided. They want to see NATO weakened. They 
want to see the NATO partners disagreeing and at each other's 
throats. We should not play into their hands. We should work 
with our European partners as we put these plans in place.
    So, it would certainly make sense to always have the 
conversation about what our posture should be in Europe. And I 
think the committee, in a bipartisan way, has deep concerns 
about the way this was done, the way it is going to be 
implemented, and how it is going to impact the NATO alliance, 
our alliances in Europe in general, and our defense posture in 
Europe specifically.
    And I look forward to hearing from our witnesses, and look 
forward to the Q&A [questions and answers] to get greater 
detail on how those decisions were made going forward.
    With that, I yield to the ranking member, Mr. Thornberry, 
for his opening statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman. And I appreciate 
having this hearing on this topic. I agree that it is important 
and, in addition, there are provisions in the current 
conference with the Senate on this year's NDAA [National 
Defense Authorization Act] which touch on these issues.
    And there are a lot of questions, as you point out. And I 
fully agree that many of these questions arise from the way 
that this announcement was made and has subsequently been 
rolled out.
    I realize that the witnesses today are not going to be able 
to answer all of our questions about when or how much but, 
hopefully, they can help clarify for us and the American people 
what, and especially why. Some of these moves seem to make 
sense on their face, for example, moving EUCOM [United States 
European Command] to be closer to NATO headquarters, having a 
greater presence in the Balkans, but there needs to be an 
overall strategic plan that is coordinated with allies, rather 
than have a bunch of rationalizations after the fact.
    I fully agree that NATO is the most successful alliance in 
history. Can it be improved? Absolutely. But we can't lose 
sight of what it has accomplished and what it means today for 
American national security. And so, however logical some of 
these individual moves may be, there is still the broader 
question of doing this in this way has some effects on the 
strength and unity of the NATO alliance. And what is that?
    And, so I hope our witnesses can shed a little light on the 
consultations, on how this all fits together in the bigger 
picture, because it does seem to me, however much or less sense 
individual moves may make, the main thing is the strength of 
NATO, especially when dealing with an aggressive Russia. That's 
the main thing. And we need to have that in mind as we go 
through these details as well.
    I yield back.
    The Chairman. Thank you. And with that, I yield to Dr. 
Anderson for his opening statement.

   STATEMENT OF JAMES H. ANDERSON, ACTING UNDER SECRETARY OF 
           DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Dr. Anderson. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, thank you for the 
invitation to testify on recent European force structure 
posture realignment, alongside Lieutenant General David Allvin. 
He is a great partner, and it is an honor to appear beside him.
    The Department continues to prioritize implementation of 
the National Defense Strategy, NDS, including the building of a 
more lethal force and strengthening alliances. One important 
initiative to advance the NDS and focus--and to ensure a focus 
on these priorities is the ongoing comprehensive review of all 
combatant commands. As part of U.S. European Command, USEUCOM, 
review, Secretary Esper directed EUCOM to develop options for 
reposturing our Europe-based forces to compete more effectively 
and respond to contingencies both within Europe and globally.
    These options will be guided by Secretary Esper's five core 
principles: (1) enhancing deterrence of Russia; (2) 
strengthening NATO; (3) reassuring allies; (4) improving U.S. 
strategic flexibility and EUCOM's operational flexibility; and, 
most importantly, (5) taking care of our service members and 
their families.
    On July 29th, Secretary Esper announced an update to the 
status of our U.S. European Command Force Posture review, 
following a decision by the President in early June to limit 
the number of assigned Active Duty service members in Germany 
to 25,000, as well as the DOD [Department of Defense] concept 
to reposition some of our forces within Europe and back to the 
United States to be better situated for great power 
competition.
    The review yielded a concept for nearly 12,000 military 
personnel to be repositioned from Germany, with almost 5,600 
re-stationed in other NATO countries, and approximately 6,400 
returning to the United States. The realignment concept 
includes consolidating headquarters to strengthen operational 
agility, repositioning some forces in the United States to 
focus on readiness and to prepare for rotational deployments, 
and deploying rotational forces to the Black Sea region on 
NATO's southeastern flank to improve deterrence.
    The concept consists of the following four pillars.
    First, the consolidation of various U.S. headquarters in 
Europe outside Germany, including in some cases, collocating 
headquarters at the same locations as their NATO counterparts 
in Belgium and Italy. This would help strengthen NATO and 
improve operational efficiency and readiness of more than 2,000 
service members in these headquarters.
    Second, the nearly 4,500 members of the 2nd Cavalry 
Regiment would return to the United States as other Stryker 
units begin rotations farther east in the Black Sea region, 
giving us a more enduring presence to enhance deterrence and 
reassure allies along NATO's southeastern flank.
    Third, 2,500 airmen based at the Royal Air Force Base in 
Mildenhall, United Kingdom, who are responsible for aerial 
refueling and special operations, and who had been scheduled to 
re-base to Germany, would remain in the U.K. [United Kingdom], 
thus ensuring uninterrupted readiness and responsiveness of 
these units.
    Fourth, a fighter squadron and elements of a fighter wing 
would be repositioned to Italy, moving them closer to the Black 
Sea region and rendering them more capable to conduct dynamic 
force employment and rotational deployments to NATO's 
southeastern flank.
    This concept to reposition our forces in Europe constitutes 
a major strategic shift, wholly in line with the NDS, and 
consistent with other adjustments the U.S. has previously made 
within NATO. Over NATO's 71-year history, the size, 
composition, and disposition of U.S. forces in Europe has 
changed many times. As our planning for the current realignment 
matures, we will be sure to communicate frequently with 
Congress and with our NATO allies to maintain visibility and 
foster cooperation.
    As we continue to implement the NDS, our efforts at 
enhancing our Europe posture beyond EUCOM combatant command 
review have shown recent successes, including the signing of 
the Enhanced Defense Cooperation Agreement with Poland in 
August that will enable an increased enduring U.S. rotational 
presence in that country of about 1,000 U.S. military 
personnel. These elements are in addition to the 4,500 U.S. 
military personnel already on rotation in Poland and includes 
infrastructure and logistical support provided by Poland.
    Our continued efforts to streamline operations across 
Europe, including through modernized and new agreements with 
NATO allies, especially on the eastern flank, directly support 
our NDS principles by improving operational flexibility and 
enhancing deterrence. The Department is confident that these 
continuing efforts will help us adapt the force and optimize 
our force posture in Europe as we seek to deter malign actors.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    [The prepared statement of Dr. Anderson can be found in the 
Appendix on page 47.]
    The Chairman. Thank you.
    General Allvin.

    STATEMENT OF LT GEN DAVID W. ALLVIN, USAF, DIRECTOR FOR 
       STRATEGY, PLANS, AND POLICY, JOINT CHIEFS OF STAFF

    General Allvin. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, thank you for inviting 
me here to be with you today. As Dr. Anderson noted, the Joint 
Staff partners closely with our OSD [Office of the Secretary of 
Defense] and U.S. European Command, or EUCOM, colleagues to 
provide credible military options to the Secretary of Defense 
and the President on U.S. military presence in Europe in 
support of national security objectives.
    The 2018 National Defense Strategy describes the erosion in 
longstanding roles based on our international order which has 
created an increasingly complex and volatile global security 
environment. Russian aggression and malign influence is 
accelerating this decline in Europe, with cascading effects 
across the globe.
    As General Wolters, the commander of USEUCOM, stated in 
testimony earlier this year, over the past 12 years Russia has 
invaded two neighboring states; violated the Intermediate-Range 
Nuclear Forces Treaty, leading to the treaty's termination; 
developed new strategic platforms; and abrogated its 
responsibilities under the Treaty on Conventional Armed Forces 
in Europe. This has been done at the expense of strategic 
stability.
    It is because of serious threats from Russia and China that 
this January--January 2020--Secretary Esper directed a series 
of combatant command reviews to focus on strategic priorities 
across the globe and realign forces in support of the National 
Defense Strategy.
    Of particular relevance to Europe, the NDS calls for the 
joint force to maintain a favorable balance of power in Europe, 
deter adversaries from aggression against our vital interests, 
and defend allies from military aggression, while bolstering 
partners against coercion.
    These objectives are accomplished through the three 
distinct lines of effort: building a more lethal joint force; 
strengthening alliances; and reforming the Department's 
business practices.
    Technological and geopolitical influence on the character 
of war necessitates the evolution, and not only the tools with 
which we fight, but the operational concepts and the general 
posture of our forces. In many ways those concepts of U.S. 
forces in Europe have not markedly changed since the last huge 
force reduction following the fall of the Berlin Wall, as well 
as subsequent changes since.
    Large formations of permanent forces can present 
vulnerabilities and are not best suited to flexibly respond to 
emerging threats across the globe and outside of their current 
area of operations. The current environment requires increased 
strategic flexibility and freedom of action.
    The National Defense Strategy unveiled the concept of 
dynamic force employment, which prioritizes maintaining the 
readiness of the joint force for major combat, while providing 
options for proactive and scalable employment for deterrence 
and assurance. This concept is critical to EUCOM posture, for 
the EUCOM posture realignment.
    Under the dynamic force employment concept, episodic 
introduction of forces across the region presents dilemmas to 
potential adversaries, while providing the Secretary and the 
President with the flexibility and capacity to rapidly respond 
to emergent threats across the globe.
    Operational flexibility is equally important. Since the 
dissolution of the Soviet Union, the ideological border 
separating East from West has gradually shifted in favor of a 
free and open international order. New allies are joining NATO, 
but these gains must be reinforced. Nations along the Black Sea 
and Baltic Sea, for instance, are under direct and persistent 
military pressure from Russia. Presenting forces further east 
would reduce the response time and increased the deterrence to 
Russian aggression.
    Moving forces in and out of the European theater, as is 
done with rotational forces, also exercises the joint 
reception, staging, onward movement, and integration 
capabilities, which must be sharp to support ongoing 
contingency plans in the region. None of this is possible 
without allies and partners. And over the past 75 years, the 
U.S. has benefitted from a growing constellation of alliances 
and partnerships.
    These bilateral and multilateral accords, with the North 
Atlantic Treaty as a shining example, serve as a strategic and 
asymmetric advantage against revisionist powers such as Russia. 
The transatlantic alliance is strengthened by the complementary 
capabilities, unique perspectives, relationships, and regional 
access provided by our NATO allies. Collaborative planning is 
necessary to coalesce these diverse viewpoints and competencies 
into an interoperable force which acts together to achieve 
common military objectives.
    Collocation of the NATO headquarters with the EUCOM 
headquarters will enhance the NATO collaborative planning with 
the EUCOM staff and build upon recent enhancements to the NATO 
command structure.
    During Secretary Esper's 29 July briefing, he affirmed that 
the realignment of U.S. forces in Europe plan is subject to, 
and likely will, change to some degree as it evolves over time. 
In his role as the global integrator, Chairman Milley continues 
to capture the views of the combatant commanders and the Joint 
Chiefs so that he may provide military advice to the Secretary 
and President on updates and refinements to the plan to address 
the strategic and operational threats at the speed of 
relevance.
    We also acknowledge that the best plans are born through 
consultation with allies, and continued engagement with 
Congress. We are committed to this collaborative approach.
    During the 29 July brief, the Vice Chairman, General Hyten, 
mentioned the Department's structure process required to 
translate this concept into action. I would like to offer some 
additional insight into the process and provide a bit of a 
roadmap going forward.
    The realignment of forces outside of U.S. territory 
required structured engagements between the Department of 
Defense, the interagency, allied host nations, and 
international organizations, in addition to this body. These 
engagements generally involve a three-part process: planning, 
approvals, and implementation. Timelines for completion depend 
on the complexity, scale, and scope of the proposed change.
    The planning stage has already begun as the EUCOM commander 
continues to iterate the posture concept with stakeholders 
across the Department, and will provide updates and 
considerations to the Secretary in the weeks and months to 
come. As the plan matures, the Department's Global Posture 
Executive Council, GPEC, co-chaired by the Assistant Secretary 
of Defense for Strategy, Plans, and Capabilities, and the 
Director of the Joint Staff, will support this effort through a 
deliberative, comprehensive process. This includes developing 
the requirements for manpower, infrastructure, and agreements 
in order to inform budgetary estimates.
    The services will determine where the capacity exists to 
support the additional forces, along with the funding 
requirements for the military construction, if applicable, of 
operational and support facilities which they will request from 
Congress. These facilities can range from increases in apron 
parking spaces for an arriving squadron, to new barracks, 
family housing, school, or medical facilities.
    The services must also evaluate support for service members 
and their families residing in and around an installation, such 
as morale and welfare programs, family service support, DOD 
schools, and child care. If an installation is expanded or 
closes--or closed, the services must account for impacts to our 
U.S. and host nation civilian workforce.
    The planning stage also involves early host nation 
consultation. Building infrastructure requires adherence to 
U.S. and host nation environmental regulatory requirements, as 
well as negotiations with the host nation on utilities, air 
space management, and historical site mitigations, for example.
    Simultaneously, planning is necessary for divestment of 
installations being closed. The approval----
    The Chairman. I am sorry, General. If you could wrap up, we 
do want to get to members' questions here.
    General Allvin. Yes, sir.
    Finally, we must remember that our most precious resources 
are our military men and women and their families. Any 
realignment will have an impact on our people, which is why 
Secretary Esper and Chairman Milley are committed to ensuring 
the needs of our service members and their families are 
paramount as we execute this realignment.
    Thank you again for this opportunity. And I look forward to 
answer questions.
    The Chairman. Thank you very much.
    Dr. Anderson, can you explain the pros and cons balance 
between permanent forces and rotational forces? That seems to 
be one of the biggest changes on the posture side that was 
contained in this, was to shift more towards rotational forces.
    Dr. Anderson. Yes. The basic advantage of rotational forces 
is they provide additional flexibility. And they do so both at 
the strategic level, which is important for the President and 
the Secretary, and also at the operational level, which is 
important to the EUCOM combatant commander. That is the main 
advantage of rotational forces.
    The Chairman. Two questions about that. One, what are the 
downsides? And two, flexibility to do what?
    Flexibility sounds like a nice word, but it doesn't 
actually tell us anything. So, flexibility to do what?
    And then what are the downsides of the forces being 
rotational instead of fully present?
    General Allvin. So, I don't see any downsides to being 
rotational, but there is a cost involved in transitioning from 
permanent forces to rotational.
    The Chairman. I guess I would ask if there are no downsides 
to being rotational forces, why do we have any permanent 
forces?
    General Allvin. So, there are certain air bases and hubs 
and logistical facilities that do need to be permanent. There 
is virtue there, as we are able to move forces and flow forces 
to various contingencies around the world.
    So, saying that there are benefits to rotational forces 
doesn't mean there is still some value in certain cases to 
permanent forces.
    And as to your other question on flexibility to do what, it 
is the flexibility to meet those emerging or emergent crises or 
conflicts which may arise, and the flexibility to take 
different forces and move them to different regions of the 
world, or move them within the European theater provides 
advantages, and it complicates adversary decision making. And 
that is, that is a good thing.
    The Chairman. Okay.
    Mr. Thornberry.
    Mr. Thornberry. Dr. Anderson, you used the word ``concept'' 
several times. And, frankly, I am confused or not clear about 
where this stands. Have we given an outline of moves that we 
will make and now we are working through the details? Or is 
this a concept in a sense that if our allies say we don't like 
that, we could abandon it?
    Dr. Anderson. So, we have outlined to our allies, our NATO 
allies, the moves as we have described here. And it is, I 
describe it as a concept with planning underway because there 
is a great deal of that to be done going forward.
    As you know, sir, the Department has very structured 
processes to plan. And receiving the Secretary's guidance and 
the President's direction we are proceeding along those lines.
    I would also add that, as with any major plan, you know, it 
is subject to revisions and modifications going forward. But 
that is, that is how I would describe it. And as I said in my 
opening statement, we commit to continuing to consult with 
Congress going forward.
    Mr. Thornberry. You mentioned several times in your opening 
statement, well, actually you both did, the National Defense 
Strategy. I brought the summary with me. There is a whole 
section, as you will recall, about strengthening alliances and 
attracting partners. There is a section on upholding the 
foundation of mutual respect, responsibility, and priorities, 
expanding consultative mechanisms, and so forth.
    Are you aware of any consultation with allies that were, 
that was made before the, roughly, June 2020 announcement that 
we were going to remove troops from Germany?
    Dr. Anderson. So, prior to the public rollout we did, we 
did speak with our NATO allies. I personally reached out to my 
counterparts, and I know my uniformed colleagues as well.
    Mr. Thornberry. I am sorry to interrupt. But, the public 
rollout, is this Secretary Esper's description of the specific 
moves or----
    Dr. Anderson. Yes, sir.
    Mr. Thornberry. Okay. So, my question was, back in June the 
National Security Advisor had an op-ed in the Wall Street 
Journal. There were announce--there were at least leaks before 
that. Were there consultations, to your knowledge, before that 
was, the announcement or op-ed were made?
    Dr. Anderson. So, I was not involved in those 
consultations. But I do know that Secretary Esper did task our 
combatant commander early in--earlier this year, very early in 
the year, to begin some planning for force posture adjustments.
    I believe that in that context it is a fair assumption that 
there were some discussions with close allies about different 
possibilities.
    Mr. Thornberry. Well, I met with several of either 
ambassadors or defense ministers, and my sense is this caught 
them all by surprise.
    Let me just ask one other question.
    Would you agree that the extent to which there is a chaos, 
disunity within NATO actually is of assistance to the Russians?
    Dr. Anderson. So, I, I would respectfully disagree with the 
characterization of chaos.
    Mr. Thornberry. No, I am just--I am not saying this creates 
chaos. I am just trying to get back to my fundamental point 
that the unity and strength of NATO is of paramount importance 
when it comes to deterring Russia.
    Dr. Anderson. And on that point I would agree 
wholeheartedly. Yes, sir.
    Mr. Thornberry. And we can agree this--we may not agree, or 
I don't know, about whether individual actions may cause chaos. 
But my main question I wanted is that unity of NATO is an 
important deterrence.
    Dr. Anderson. Yes, indeed.
    Mr. Thornberry. Okay. All right. Thank you, Mr. Chairman.
    The Chairman. Okay. Mr. Langevin is recognized for 5 
minutes. Mr. Langevin is participating remotely, so give him a 
second to queue up. Jim, you are on.
    Mr. Langevin. Thank you. Thank you, Mr. Chairman. Can you 
hear me okay?
    The Chairman. Yes.
    Mr. Langevin. Okay. Thank you, Mr. Chairman. I want to 
thank our witnesses for being here today to discuss the need to 
maintain our defense posture in Europe. And I'm sure we can all 
agree our greatest strength in deterring Russian aggression is 
our allies.
    So, my question, let me begin with this: a realignment 
plan, certainly in my view and that of many others, should fix 
something that isn't working. Dr. Anderson, what problems 
currently exist that necessitates such a costly, large-scale 
realignment?
    And, additionally, how do you assess our existing allies, 
such as Germany, will view this plan?
    Dr. Anderson. I am sorry, could somebody repeat that 
question? I couldn't quite hear it.
    Mr. Langevin. Yes, I will try again.
    The Chairman. I am sorry, let me--go ahead, Jim.
    Mr. Langevin. Can you hear me better now if I speak up 
closer?
    The Chairman. We hear you fine, as near as I can tell. Go 
ahead.
    Mr. Langevin. Okay. I asked, a realignment plan should fix 
something that isn't working. And so, Dr. Anderson, I wanted to 
ask what problem currently exists that necessitates the costs 
of large-scale realignment?
    Additionally, how do you assess our existing allies, such 
as Germany, will view this plan?
    The Chairman. The basic question is what wasn't working, 
what were you trying to fix, and how do you think Germany feels 
about this?
    Dr. Anderson. Thank you. So, as, you know, as mentioned and 
discussed earlier, we look at posture on a routine basis, how 
we are doing around the world. And certainly in the context of 
the Secretary of Defense-directed combatant command reviews, 
this is--and by the way which is not, wasn't just focused on 
EUCOM but was, is an across-the-board review of all our 
combatant commands--we looked at how well current posture is 
deterring our competitors. And we looked at how efficient our 
disposition of troops is.
    And in that context we have come up with, you know, a plan 
going forward to enhance that posture and to align with the 
five principles articulated by Secretary Esper.
    So, in the case of Germany, you know, they probably, you 
know, they have some different ideas perhaps about what will be 
the ideal posture. But these are our forces, at the invitation 
of Germany. And I would argue that, you know, change can be 
hard because change is different, but we are quite confident 
that these changes will in fact be beneficial not only to the 
United States but our, all our NATO allies.
    I would also note in the broader context of European NATO 
history, there have been multiple changes over time in terms of 
our force posture in----
    Mr. Langevin. Okay, let me, I am going to stop you there if 
I could. My time is running down.
    I have to be honest with you that I am really having 
trouble connecting the dots where this is fixing a problem that 
really I don't think exists right now. I think it is going to 
cause more problems than anything it is going to solve.
    But let me turn to this. Our approach to deterrence 
obviously has to be a whole-of-government approach, not solely 
reliant on the DOD. When deciding these realignment plans, what 
role does and did the State Department play? And what inputs 
have they provided during this process?
    I think the ranking member touched on this. But I think it 
is important to address and expand upon that.
    Dr. Anderson. Yeah, I am sorry. What role did? Can somebody 
summarize the question? I am having a hard time hearing.
    Mr. Langevin. The State Department, what role did they have 
in this and what inputs did they have in the process?
    Dr. Anderson. So, I know that I talk to my State Department 
colleagues all the time, and I know that Secretary Esper talks 
to Secretary Pompeo. And, you know, prior to the rollout we did 
discuss this posture realignment with our friends across the 
river.
    Mr. Langevin. Okay. It doesn't sound like--it sounds to me 
then that it was ad hoc as opposed to a well thought-out State 
Department process and involvement.
    So, with that I know my time is running down, so I will 
yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson is recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And thank each of you 
for being here today to bring us up to date on the European 
theater.
    I am particularly grateful that President Trump has 
expanded the troop presence in Poland. This is a deterrence to 
Putin aggression. And it is special to me: I have a Polish-
American daughter-in-law, and so, the recognition of how 
important that country is to all of us, and has been.
    And then I had an opportunity to meet with President 
Andrzej Duda in New York and thank him for the warm welcome of 
American troops. In fact, there has been speculation that the 
base could be called Fort Trump. The key point is that we 
really appreciate and recognize the importance of Poland to 
deter aggression.
    And, Secretary Anderson, I was an election observer in 
Bulgaria in 1990 for the parliamentary elections which 
represented the historic transition to a democratic society, a 
dream come true of democracy in Bulgaria. I visited our base 
there in Novo Selo in 2008 at its meager beginning, and now it 
is a world-class training facility which has been really 
reinforced by Prime Minister Boyko Borissov.
    Additionally, I visited MK [Mihail Kogalniceanu] Air Base 
in Romania with Congresswoman Madeleine Bordallo when it was 
established as a logistics hub for the global war on terrorism, 
but is now modernized to be the heel-to-toe rotations for our 
armored brigade combat teams in Europe.
    What is your assessment of our relationship with NATO 
allies Bulgaria and Romania, including the strategic locations 
of Novo Selo and MK for the European Defense Initiative?
    Dr. Anderson. So, first on Poland, we certainly agree they 
are a strong NATO ally. And we believe the Enhanced Defense 
Cooperation Agreement is going to make that partnership even 
stronger with our rotational, our additional rotational forces 
there.
    Both Bulgaria and Romania are relatively new to NATO, 
having joined in 2004 with other countries. But they have made 
tremendous strides, as your question suggests, in terms of 
modernization and professionalization. So, we absolutely are 
looking to them as we reposition and move additional rotation, 
move additional rotational forces through those two countries.
    We think that this will strengthen deterrence along NATO's 
southeastern flank in a very positive way. And so we are 
excited about this possibility.
    Mr. Wilson. Thank you very much.
    And, Mr. Secretary, there is always going to be tensions 
between commitments that we have in other areas of the world, 
such as the INDOPACOM [United States Indo-Pacific Command] 
region, recognizing the importance now of the alliance that we 
have with India and how far that has come. The American 
security commitments to EUCOM, though obviously we need to 
maintain, how do we do this to be committed to our European 
allies, to our Asian allies?
    What is the latest on the strategic gains of our military 
over the last year with our partners and allies in Europe?
    How can we better prepare America and our strategic allies 
to deter adversaries?
    Dr. Anderson. So, in the context of great power 
competition, which we outline in the National Defense Strategy, 
we are very concerned, obviously, about our competitors, both 
the People's Republic of China and the Russian Federation. The 
United States is a European power, it is also a Pacific power. 
We can, and we are, and we will continue to have commitments in 
both regions and deter on both those fronts.
    I would add that the rotational element of this current 
plan here gives us more flexibility both, again, at the 
strategic level and at the operational level. So, what that 
means in very practical terms is that some of the troops 
currently positioned in Europe that will be coming back to the 
United States, and then will have the inherent flexibility to 
respond to any number of global contingencies. But they will 
still retain a keen focus on deploying back to Europe on a 
rotational basis.
    Mr. Wilson. Excellent. Thank you.
    And, General Allvin, there is no doubt that China and 
Russia are our main competitors and they continue malign 
activity in Africa. What is the Security Force Assistance 
Brigade [SFAB] support for AFRICOM?
    The Chairman. And I do apologize, but you have about 15 
seconds to answer that question.
    General Allvin. Absolutely. I would say this is one of the 
great developments that the United States Army has done to be 
able to adapt the environment and understand it is not all 
about high-end combat, but sometimes you have to compete in 
those mil-to-mil [military-to-military] cooperation 
arrangements that the SFAB really primes on. It is important to 
be able to compete across the globe.
    Mr. Wilson. Hear, hear. Thank you.
    The Chairman. Thank you.
    Mr. Larsen is recognized.
    Mr. Larsen. Thank you, Mr. Chairman. I will yield my time 
to Representative Houlahan of Pennsylvania.
    Ms. Houlahan. Thank you, Mr. Larsen. And thank you all for 
coming.
    Before I start with my questions I don't--I want to kind of 
pause for a minute on Representative Wilson's comments 
regarding troops in Poland and respectfully disagree. I am not 
certain that it is necessarily a deterrence but possibly an 
escalation by moving troops to Poland.
    And my father is Polish-born, and so I personally have 
heard from him about the history of that war-torn area of our 
planet, and I worry about that.
    But my questions are for you, Dr. Anderson. And it is my 
understanding that this realignment will affect our posture in 
Africa. And so, what is the process that the Department will be 
using to determine where it will be relocating AFRICOM 
headquarters?
    And could you please describe what assessment you have made 
of how the realignment would affect our presence in Africa?
    Dr. Anderson. So, as outlined on the 29th, the public 
rollout, the AFRICOM headquarters, which is currently in 
Stuttgart, Germany, will be moving to a different location to 
be determined. And there will be a number of factors involved 
there in making that determination, including cost and 
receptivity of host nations, if it is going to be based in 
Europe or even in Africa; or if it were to move back to the 
United States, which is yet another possibility, obviously, you 
know, the services would be involved in consultation with 
Congress about potential destinations.
    So, cost and operational efficiency would--as applicable, 
any host nation permissions, those would all be among the 
variables that the Department would have to assess.
    Ms. Houlahan. So, do we have that sort of data on where it 
currently exists so that we could compare whatever the two 
options or three options are?
    And why would we decide just to move just to move, without 
any sort of information or data about where staying put would 
put us in terms of a cost-benefit analysis?
    Dr. Anderson. So, I don't have, I don't have those details 
on the current cost of maintaining that headquarters. But, I am 
confident that we will find operational efficiencies in moving 
that, and also meeting the Presidentially directed cap of our 
forces in Germany.
    Ms. Houlahan. And how would you make an assessment of what 
the effect would be with our relationships in Africa, our 
presence in Africa? What sort of factors would come into play 
there? You mentioned specifically maybe moving to the United 
States, which sort of doesn't seem like a sensible solution.
    Dr. Anderson. So, I worked in the Pentagon in the 2000s, 
and I remember well the vigorous debates that ensued at that 
time when AFRICOM was established, where it could or should be 
located. And it is my full expectation that we will have a 
similarly vigorous debate this time around on the potential 
destinations of AFRICOM.
    And I know that General Townsend, the combatant commander 
for AFRICOM, is working with his staff to develop such options.
    Ms. Houlahan. Thank you. And with the remainder of my time, 
General Allvin, this question is probably in the classified 
environment, but I would like to just put it out there and 
potentially have a follow-up with you.
    I would be interested to know if the Department has updated 
operation plans for various Russian-related contingencies, 
given the proposed changes to our posture in Europe?
    General Allvin. Congresswoman, we can certainly go into 
more detail at a higher level of classification.
    I will tell you that the EUCOM staff did consider those 
when they were developing this realignment posture and the 
costs of this. They were considered, both the current ones and 
including some of the shortfalls and the opportunities with 
this.
    But I can go at a higher classification with you.
    Ms. Houlahan. And would we be able to follow up with you on 
more details on that at a different classification level?
    General Allvin. Yes, ma'am.
    Ms. Houlahan. Okay, thank you.
    My last question is also for you. I am curious to see how 
EUCOM is working with allied agencies to counter Russian cyber 
threats, and how the proposed posture changes would affect that 
work.
    General Allvin. I know that the--actually from being on the 
staff from 2015 to 2018 I have been heartened in the last 
couple years to see the actual improvement in the capabilities 
in the cyber realm within U.S. European Command to be able to 
not only address those, but also reach out to some potentially 
vulnerable--and that is about as much as I can go to in this 
classification level--partners within the region.
    I would say that the assessment I would have to defer to 
U.S. European Command for a specific assessment. I would say in 
general, though, the relationships and specifically how it 
pertains to cyber engagements and movements on that front, I 
would not anticipate a big change either way on that from the 
current positive path that it is on.
    But I would have to yield to, and we can get back to you 
for the record, with EUCOM for more details, if you would like, 
on that topic.
    [The information referred to can be found in the Appendix 
on page 59.]
    Ms. Houlahan. Thank you. I appreciate it.
    I have run out of time. And thank you, Representative. And 
I yield back to the chair.
    The Chairman. Thank you.
    Mr. Turner is recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to begin by stating that I share the chairman and 
the ranking member's skepticism concerning this plan. But I 
want to associate myself with the comments of Mr. Wilson.
    I think it is very important for us to have forward-
deployed troops. And having participated in observance of war 
games in Poland, I know how important our presence in Poland is 
in deterrence with respect to Russia.
    General, I want to begin with you. You were involved in the 
formulation of this plan; correct?
    General Allvin. I was not personally involved in the 
formulation of this plan.
    Mr. Turner. Okay. Have you reviewed the process upon which 
the formulation occurred? Did you have conversations with those 
who were putting the plan together?
    General Allvin. I have.
    Mr. Turner. Are you aware whether or not the NATO-Russia 
Founding Act of 1997 had a, had an impact in the formulation of 
this plan which prohibits the forward deployment of troops on a 
permanent basis in former Warsaw Pact countries?
    General Allvin. I did consult with those who are developing 
the plan afterwards to ensure that the NATO-Russia Founding Act 
was taken into consideration. And they assured me that it was 
taken into consideration because the wording in the NATO-Russia 
Founding Act talks about significant forces permanently 
stationed rather than rotational.
    Mr. Turner. Now, Russia doesn't see it that way; right, 
General? I mean, Russia believes that rotational forces that 
are--have a continuing presence are in fact permanent. Isn't 
that their objection that they have made to this plan?
    General Allvin. That is their objection. I don't know that 
that is what they believe in their hearts or if that is part of 
the competition rhetoric.
    Mr. Turner. If there wasn't the NATO-Russia Founding Act 
would we have approached this differently?
    General Allvin. I would have to yield to the EUCOM staff 
for that. I think we look at the evolution of the strategic 
environment and take that into account. But I can't speak on 
their behalf as to whether that would have significantly 
altered the path.
    Mr. Turner. General, if we are in a conflict with Russia, 
do you believe that the Atlantic is contested space?
    General Allvin. I do.
    Mr. Turner. Wouldn't that mean that by having rotational 
forces that it complicates our ability to rotate forces, to 
augment, supplement, or to even, as Dr. Anderson was saying, to 
give us the flexibility as to what we have in Europe?
    General Allvin. Congressman, to keep it at this 
classification level I would say that while our ability to 
rotate forces into the theater would be challenged, the 
existence of the amount of permanent presence forces there 
would be insignificant--would not be significant enough to 
successfully engage decisively the Russians in a conflict. So, 
one would still have to deploy significant amounts of forces in 
which the Atlantic would be contested, regardless.
    Mr. Turner. General, when you commit to rotational forces 
as opposed to permanent forces, isn't it true that rotational 
forces can actually have an increased cost above what permanent 
basing of forces would be?
    General Allvin. I would yield to the services for that. But 
it is my understanding that there is an increased cost. Now, 
that can be, that can be mitigated through different means, 
whether it be keeping the equipment there or not, there are 
different ways that it can be mitigated. And the advantages of 
rotational forces can outweigh that.
    I would yield to the services for that.
    Mr. Turner. Dr. Anderson, Russia has obviously been in 
violation of the NATO-Russia Founding Act. They, too, had 
representations in the agreement, which is not a treaty and is 
not, therefore, binding to the United States. And their 
incursions both into Georgia and to Ukraine would certainly be 
violations of those acts, of that act.
    If the Russian--if the NATO-Russia Founding Act was not 
being adhered to by the United States in this plan, would you 
have scoped it differently and would you have looked at placing 
permanent troops forward based?
    Dr. Anderson. I would also have to defer to the EUCOM staff 
on those, on that particular question. But I would say that I 
would just reemphasize the value of the rotational forces. The 
cost is a consideration. In some cases it may go up, but in 
other cases with the rotational forces you don't have the costs 
associated with families being PCSed [permanent change of 
station] overseas. So, that would in fact be a cost savings, 
again, once you get through kind of a transition period, which 
is envisioned to take years.
    Mr. Turner. Well, Dr. Anderson, I am not a fan of the 
United States adhering to agreements that Russia continuously 
violates. And I do fear that in this instance we may be scoping 
our plans and policies by limiting ourselves to an act that is 
at this point meaningless.
    Thank you. I yield back.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, for holding this 
hearing and to our witnesses for being here today.
    You know, one aspect of this plan which we haven't talked 
about which strikes me as one of the oddest part of the 
proposal is the scaling back of the continuous presence of our 
Marines in Norway. Again, last October Mr. Norcross and I spent 
some time in Norway, again meeting with defense officials, 
members of the Norwegian military. The tempo of antisubmarine 
warfare activity that the U.S. is collaborating with Norway has 
gone through the roof in the last few years, which I am sure 
both witnesses are very familiar with.
    And as a government and as a country they, again, for so 
many reasons are so critical as an ally. (A) they are the NATO 
member in the high north; they, again, are a whisper away from 
hitting their NATO GDP [gross domestic product] target in terms 
of defense spending. And we went through, again, the increases 
that they have been investing in in a whole variety of areas 
that are there. And they border Russia.
    So, you know, the rationale about ending continuous 
presence of the Marine Corps in Norway, this committee has 
spent really the last 5 years on a bipartisan basis supporting 
the European Defense Initiative as a way of reassuring our 
allies. And that was a big part of the conversations that we 
were having with defense officials and government officials 
while we were there.
    So, explain what was the rationale of doing that, again at 
a very critical time with a country that is obviously really 
hitting above its weight in the region as an ally of this 
country? What has been the reaction?
    And, given the fact that they did the Black Sea rotations 
out of Norway with that Marine unit, and that purportedly is 
one of the things that you are focused on, how is that any--how 
is the newly planned rotations for the Black Sea any different 
than what we are already doing with those troops that are in 
Norway?
    Dr. Anderson. So, a couple points. NATO, Norway remains a 
key, actually, a founding member of NATO, and obviously 
important for its geographic location, as you noted, sir.
    The, you know, the Marine Corps is an expeditionary force 
in readiness, you know, has decided that, you know, they are 
going to continue to take advantage of the relationship that we 
have with Norway and the fact that we have pre-positioned 
equipment up there, but just do so in a different way, in a 
more rotational way that will give, provide additional 
flexibility, and also is very consistent with the National 
Defense Strategy and the emphasis on dynamic force employment.
    Where we don't necessarily telegraph, you know, all our 
movements years in advance, you know, we can do things on short 
notice. We can change the schedule up in a way that is 
operationally unpredictable. And the Marine Corps is very 
capable of moving quickly. And this is something that will, as 
talked about earlier, provide the United States with some 
additional benefits.
    Mr. Courtney. So, do they, I mean, so you're saying this 
actually enhances, you know, the ability to be--to have a 
deterrence capability in that region? That is your statement 
today?
    Dr. Anderson. Yeah. Combined with the other moves described 
with respect to this posture realignment, yes, I do believe it 
is going to enhance deterrence.
    Mr. Courtney. So, again, the question regarding the Black 
Sea rotations which, again, already are occurring with those 
Marines in Norway today, how is the newly planned rotations, 
what is the change there? What is the benefit for not using 
Norway's even as the resource?
    Dr. Anderson. So, one of the main pieces envisioned with 
the posture realignment is that there will be some Stryker 
units that will be moving to the Black Sea region and on a 
rotational basis. So, that is--I am not aware that Marines that 
were up in Norway are necessarily moving or planning to rotate 
to the Black Sea region. They might.
    But, I mean, again, that is part of the value of having 
this rotational flexibility.
    Mr. Courtney. Yeah, they are actually doing precisely that.
    And with that I yield back.
    The Chairman. Thank you.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I wanted to focus, both Dr. Anderson and Lieutenant General 
Allvin, on the 2020 agreement that was signed with Poland 
setting the conditions for burden sharing and moving the 
troops, 1,100 more service members into Poland.
    So, was there or is there any discussion about moving more 
of the troops from Germany into Poland instead of relocating 
those troops back to the United States? And is a permanent U.S. 
base in Poland something that you foresee may happen?
    Dr. Anderson. So, I will start on that one. You know, we do 
have approximately 4,500 troops on a rotational basis going 
through Poland. And the agreement that was signed this summer 
by the President and his counterpart envisions another 1,000 
thereabouts being deployed on a rotational basis. And it will 
include elements of the 5th Corps headquarters element. And 
that, that will provide our Army units, clearly, in Europe with 
additional sort of eastward presence that they do not currently 
have.
    And we think that, you know, on a rotational basis is the 
appropriate agreement with the Polish Government.
    Mrs. Hartzler. So, you don't see any of the troops that are 
currently in Germany being moved to be part of the 1,100 over 
in Poland?
    Dr. Anderson. No, ma'am. Those are, they are, I would 
describe the European force posture restructuring and the 
Enhanced Defense Cooperation Agreement as separate but 
complementary in their impact and their effect.
    Mrs. Hartzler. So, I was in Poland last year with some of 
my other colleagues here at HASC [House Committee on Armed 
Services]. We were at Poznan, we were at Powidz Air Base there. 
And can attest that a lot of the training facilities are pretty 
austere in Poland. I understand that is one of the issues that 
needs to be addressed, the development of training range 
infrastructure. And it is my understanding that Poland has 
agreed to help pay for that and to construct that.
    Can you tell me both the timeline of that and what is the 
nature of the training grounds that will need to constructed?
    Dr. Anderson. So, the Enhanced Defense Cooperation 
Agreement does allow for, does provide for the Polish 
Government to assist with these infrastructure improvements.
    I would have to get back to you on the particular timing of 
those, ma'am.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mrs. Hartzler. Okay. And switching gears to the 2nd Cavalry 
Regiment that is returning back to the United States, what is 
the process to determine where their location is going to be, 
their new home station?
    And what is the timeline for stationing them back to the 
U.S.?
    And along with that, what infrastructure will be needed for 
them to return?
    Dr. Anderson. So, the timeline is, will take, will take 
some time. I mean, as we have said consistently, this is months 
of planning and years of execution, so that a precise timeline 
is to be determined. And that will be, you know, in 
consultation with, obviously, with Congress and also the 
services on where, where they may end up in the United States.
    Mrs. Hartzler. Do you have any idea how much infrastructure 
will need to be built to sustain them? Or will that be 
determined once you determine the location, I assume?
    Dr. Anderson. The latter, ma'am.
    Mrs. Hartzler. Okay. Thank you very much.
    I will yield back.
    The Chairman. Thank you.
    Is Mr. Norcross with us? I don't--Mr. Norcross, is he? He 
is not.
    Mr. Gallego. Mr. Gallego is with us remotely.
    Ruben, are you hearing me there?
    Mr. Gallego. Yeah, I can. Thank you very much.
    I apologize. I am still in shock, to begin with, in regards 
to--I am sorry, can you hear me?
    The Chairman. Yes. Yes, we can hear you.
    Mr. Gallego. I am still in shock, to begin with, like, 
about the decision-making process that we saw going into this. 
And that is kind of I wanted to make sure that you all 
understand part of my statement here.
    Many of us attended a briefing, a classified briefing, that 
I think a lot of us came out not very satisfied in terms of 
where the rationale, and not only where the rationale came from 
but then the method that was used to hit the goals that were 
set by the President. So, I just want to pick that out.
    To go into other questions, though, General Allvin, have we 
seen a decrease in Russian military activity or a general 
decrease in the threat from Russia in the past couple years?
    General Allvin. No, Congressman, we haven't.
    Mr. Gallego. Okay. And I agree.
    For the NDAA, I wrote the amendment in this year's NDAA 
putting restrictions on troop withdrawals and moves to get rid 
of infrastructure in Europe. So, tell me, how do we take the 
troops out of Germany or Europe with all [inaudible] against 
Russian attacks anything other than a, you know, soft gift, in 
my opinion, to the Kremlin that is still actively trying to 
assert its influence over Europe?
    General Allvin. Well, Congressman, all I can really offer 
on that front is that as we are looking to execute the National 
Defense Strategy we take into account not only what Russia is 
doing, but we also have to take into account what China is 
doing.
    We also have to take into account what is happening with 
respect to our readiness, trying to recover readiness.
    We also have to take into account the fact that despite the 
fact that Congress has been very, very generous with the 
budget, we can anticipate that there will be, probably, 
downward pressure on the budget.
    So, as we look at how we can best array the forces to deter 
across the globe, if we were to take Europe in isolation it is 
a very, very defensible argument to talk about that maybe we 
should have more forces in Europe. And at the same time, one 
might say we need to have more forces in the INDOPACOM AOR 
[area of responsibility] to push back on that aggression.
    But as those sort of conflict with each other, the idea 
that we would develop a new approach to deterrence, and that 
approach is founded on dynamic force employment, and in order 
to do that some of these, these force alignments and these 
force reposturing enable the Secretary to have more freedom to 
be able to do dynamic force employment to not only deter in 
Europe but also to deter in the Indo-Pacific.
    Now, that is going to require something though. That is 
going to require our ability to demonstrate that we can deploy 
forces in a rapid manner, in an operationally unpredictable 
manner, in that the new decision calculus, which is the 
baseline of deterrence, the new decision calculus is based on 
the idea that even though the forces may not be there in the 
way that they were before, that malign influence that is being 
considered is now perhaps deterred because of the idea that the 
forces will be there in an unpredictable manner, maybe not 
where they expected they would be. And it is still the costs 
and the risks outweighs the benefit of that malign activity.
    So, it really is trying to understand, with all those 
conflicting pressures, how one best postures across the globe, 
which is why, as Dr. Anderson mentioned, the Secretary has 
directed the combatant commander reviews across all of the 
combatant commands.
    Mr. Gallego. I reclaim my time.
    First of all, thank you. But to be clear, talking to many 
of our European defense ministers, if we want to talk about 
deterrence, the best deterrence, obviously, is having a strong 
alliance that, you know, trusts each other and believes in each 
other. These moves have really made a lot of our longstanding 
allies question whether we are really going to be there should 
the balloon go up.
    And speaking of just cost, Dr. Anderson, why hasn't the 
Department sent the committee a cost estimate; aside from 
actively harming our national security, in my opinion we are 
going to need money to make these changes. Just simply moving a 
combatant command headquarters like AFRICOM is going to cost us 
billions of dollars. Where is that money going to come from? 
What is the estimate for all this stuff, how much it is going 
to cost?
    Dr. Anderson. So, as Secretary Esper pointed out on the 
29th of July, you know, we are still formulating those cost 
estimates. He did, he did note that it will be in the single-
digit billions, that that is rough order of magnitude at this 
point. But, clearly, going forward, subject to further planning 
and assessments, we will have a more refined estimate that we 
will be able to share with the committee.
    Mr. Gallego. Well, thank you. Thank you, Dr. Anderson.
    This is just, just to be clear, we made a decision based on 
the President's decision to move a certain amount of troops out 
of Germany without any actual context of how this brings 
deterrence or national security. And then we have, basically, 
the Pentagon built a, I would say, a plan around that idea 
without any actual understanding----
    The Chairman. If you could wrap that up quickly, Ruben.
    The gentleman's time has expired. Thank you.
    Mr. Byrne is recognized for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman.
    General, I see that you got a master's from Troy State, 
spent some time at Maxwell Air Force Base. Alabama proudly 
claims you. So, glad you are here.
    So, I am trying to understand some basics here. And I know 
you can help me. So, a total of 12,000 military personnel are 
being repositioned. And I think I understand that 5,600 of 
those will be restationed within NATO, but 6,400 will be coming 
back to the United States. Do I have that correct?
    General Allvin. That approximate number, yes.
    Mr. Byrne. Are the 6,400, are all of them going to be on a 
rotational basis or are some of them not going to be on a 
rotational basis?
    General Allvin. To my understanding, as was briefed to the 
Secretary and the Secretary released on the 29th, some are. 
Some may be back maintaining readiness as well. So, they are 
available.
    Mr. Byrne. When they come back on a rotational basis are 
they still considered to be a part of the EUCOM force?
    General Allvin. Yes, Congressman, they are.
    Mr. Byrne. Okay. So, they are part of the EUCOM force but 
they are in the United States, can be brought back at the 
pleasure of the commander.
    How do they get back?
    General Allvin. Well, sir, there is a process that is 
called the Global Force Management process that I won't bore 
the committee with here. But, really, the combatant command, 
combatant commander will request on a rotating basis certain 
types of forces for certain types of activities, and justify it 
within the context of their global campaign plan and execution 
of the National Defense Strategy.
    That makes its way into the Department. The Chairman of the 
Joint Chiefs of Staff, as the global integrator, will evaluate 
all of those requests and look at it from a global perspective 
in the execution of the National Defense Strategy. And that 
will make its way up his military advice up to OSD and up to 
the Secretary for decision.
    So, those rotational forces will be dispersed across the 
globe in accordance with the National Defense Strategy 
priorities. And that happens year to year.
    But, on any given time, if you are counting noses in the 
theater, I think General Wolters would say all of those, 
whether rotational or assigned, those are the forces he 
considers as part of the U.S. European Command force posture.
    Mr. Byrne. But--make sure I understand what you are saying. 
Even though they are part of EUCOM, they have rotated back to 
the United States, they can be put into INDOPACOM if that was 
the decision by the Department of Defense?
    General Allvin. That's correct, Congressman. And another 
unit could actually go into Europe.
    Mr. Byrne. Right. So, it does seem like, even though you 
are saying it is rotational, it does seem like we have a net 
reduction of forces in-country and available to EUCOM, but 
6,400, that is the way it seems to somebody that is not in 
uniform. Where am I wrong about that?
    General Allvin. Well, you are not wrong. The idea is it 
could be at any time up to 6,400 fewer. However, at any given 
time, depending on the nature of which rotational forces have 
been requested and where, it could be no net loss. So, there 
still is a variability; they are just no longer permanently 
with their families stationed there. But they could be, they, 
or other units, like units or different units, can be there 
doing the same mission for the combatant command.
    Mr. Byrne. But to do that you have to go through that 
process that you described. And I don't know whether that is a 
process that takes 5 minutes, 5 days, 5 weeks, or 5 months, but 
it takes some time to make that decision?
    General Allvin. Those decisions are made well ahead of 
time. So, the decisions are going on right now for the types of 
forces that will be deployed in the end of fiscal year 2021 
into fiscal year 2022.
    So there, those, those forces are known well ahead of time 
so they can get trained up for the missions for which they have 
been designated to be allocated to the combatant commander for.
    Mr. Byrne. Well, I am certainly not in a position to 
question someone that has your level of expertise and 
experience, but from a layperson's point of view it looks like 
we have reduced our troop presence in Europe at a time that 
Russia is actually becoming more of a threat. And I hope you 
understand, that is where some of us are coming from, we are 
saying this looks like we are pulling back, and we think we 
should be stepping forward.
    I will never forget, I think it was my second month on this 
committee that Russia basically invaded Ukraine. And nobody had 
any notice. We didn't have 5 months to plan. They just did it. 
And I have absolutely no confidence that Putin won't do that 
again. In fact, I have all the confidence in the world he will 
do it again, particularly if he thinks that we are weakening.
    And I worry, and I think some of our allies are worrying, 
that they are looking at this move as a weakening of American 
presence, a weakening of American resolve, a weakening of 
American capability operating with our NATO allies. So, I am 
just registering to you, I don't have your background and I 
can't question you on the details of it, but from that sort of 
outsider's layman's perspective, it looks like were are pulling 
back. And I think that bothers a lot of us.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    So, I am not sure from looking at the screen who we have 
here. Ms. Horn is up next.
    Kendra, are you on anywhere--does not appear that way.
    Mr. Cisneros. Zero for two.
    Mr. Crow, I saw you. There you are, Jason. Mr. Crow is up. 
You are recognized for 5 minutes.
    Mr. Crow. Yes, I am here. Can you hear me? Great.
    The Chairman. Yes, we got you.
    Mr. Crow. I want to start with Mr. Anderson. I was 
quizzical, to say the least, on your comment that there are no 
downsides to rotational forces. I just want to flesh that out 
for a minute.
    One is, are rotational forces, do they have as much time to 
train and develop relationships and interoperability with local 
NATO partner forces as currently stationed forces do?
    Dr. Anderson. So, even with the rotational forces, you 
know, we will have a limited presence within a particular 
country through which their rotational forces are moving.
    Mr. Crow. But the forces themselves, they will have less 
time than if they were permanently stationed; correct?
    Dr. Anderson. They will have less time within the country. 
That is correct.
    Mr. Crow. Okay. Next question. Next question, do they have 
as good awareness of the terrain and the surrounding area in 
which they will operate as a permanently based force?
    Dr. Anderson. So, again, there will be, there will be 
liaisons, there will be forward elements.
    Mr. Crow. Will the forces themselves? I am not concerned 
about the liaisons, headquarter people, people sitting back in 
headquarters offices; the forces themselves.
    Dr. Anderson. So, the forces themselves will have a, I 
would say, a broader pers--a broader understanding of possible 
regions of the world that they may have to deploy to.
    Mr. Crow. Okay. So you are saying that a rotational force 
coming from the United States that rotates for 6 to 9 months or 
a year will have a broader view--will have a greater or less 
understanding of the terrain over which they operate in if they 
were to be countering Russian aggression?
    Dr. Anderson. So, they will not have the same degree of 
understanding as forces that----
    Mr. Crow. Okay.
    Dr. Anderson. But they will retain a keen appreciation and 
a focus----
    Mr. Crow. I will reclaim my time, Mr. Anderson.
    So, they will have less, they will have less time and less 
awareness of the terrain.
    Secondly, will they have as much time with their families 
as a permanently stationed force in Europe would have?
    Dr. Anderson. So, it depends on the nature and the 
frequency of the rotations.
    Mr. Crow. Okay. Mr. Anderson, the answer is no to that, and 
you know that. They will be rotating away from their families.
    Next is will they have as much time to train on ranges in 
critical combat skills? Because if you are forward deploying or 
rotating, obviously a significant amount of time is spent 
deploying and redeploying. Will they have as much time doing 
critical combat skill training?
    Dr. Anderson. So, two points. Even forces that are 
permanently stationed in Europe today deploy within Europe and 
spend--are apart from their families at certain, at certain 
times.
    Secondly, for training, it really depends on the unit that 
we are talking about and the available ranges. It may in some 
cases actually have greater training and access in the United 
States, again depending on the unit.
    Mr. Crow. Okay. Well, Mr. Anderson, I think you and I both 
know that when you are deploying and redeploying forces that 
takes significant time that could otherwise be spent on 
critical combat skills. And it strains credibility that you 
would try to justify it that way. And there are, indeed, many 
downsides for rotational forces in terms of the readiness of 
our troops. And I believe you know that.
    So, I don't appreciate you dodging those questions.
    Mr. Anderson, the Secretary of the Army, Mr. McCarthy, 
Secretary McCarthy on July 21st confirmed after returning from 
Europe that he had had no discussions with our European allies 
about rebasing or troop withdrawal as of July 21st. So, why 
would the Secretary of the Army be unaware of this plan at that 
point and not be consulting with our allies?
    Dr. Anderson. I can't speak for the Secretary of the Army. 
I can assure you, though, that I was in contact with my 
counterparts at the policy level about this force structure 
reposturing.
    Mr. Crow. Okay. General Allvin, turning to you for a 
moment. You have been in the military for a very long time and 
have been a part of a lot of discussions around repositioning 
and shifting of forces. Did the timeline and the process for 
this decision, was that consistent with the prior timelines and 
processes that you followed in the past?
    General Allvin. Congressman, I would say that given the 
timeline when the Secretary directed the combatant command to 
do this, which was starting in January, I would say that this 
is, this is not completely inconsistent. I would say that the 
complexity of this also is the reason why the Secretary has 
reserved the right to continue to make iterations as we get 
smarter.
    But this is a 6-month review. It is consistent. And I think 
the devil will be in the details of the updates to it and the 
implementation in order to make sure we measure twice and cut 
once.
    Mr. Crow. Okay. Thank you, General.
    Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    Mr. Conaway is recognized for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman. And, gentlemen, thank 
you.
    Nobody likes to have their decisions second-guessed, but 
that is the drill. So, appreciate your being here this morning.
    I am a CPA [certified public accountant], and I kind of 
approach everything from the dollar standpoint. Dr. Anderson, 
did I hear you say earlier that there was a rigorous cost-
benefit analysis done of the overall project of what was 
formally proposed in June? In other words, is it going to cost 
more money, less money?
    DOD budgets are always under pressure, given the tyranny of 
personnel costs, costs increasing. So, what is the bottom line: 
is it going to cost us more or less?
    Dr. Anderson. So, we anticipate that this, in its totality, 
will as a rough magnitude cost in the single digit billions. 
That is the estimate at this time. And as we go forward and we 
refine those estimates, that number may go, go up or could be 
adjusted in some fashion.
    Mr. Conaway. I understand. It would change if you changed 
the plan. But would you describe the process as being rigorous?
    Dr. Anderson. So, as earlier----
    Mr. Conaway. On the back of a napkin it seemed like.
    Dr. Anderson. Earlier, as my colleague has pointed out, we 
are still in the process of developing and maturing this plan. 
And there, it is a complex one. There are a lot of, lot of 
moving pieces here, different headquarters going different 
places, and rotational forces, and subject to further 
refinement. So, we just do not have a clear----
    Mr. Conaway. So, do you anticipate----
    Dr. Anderson [continuing]. Estimate at this time.
    Mr. Conaway [continuing]. A decision that we can't afford 
to do all of this, that we unwind this if it costs too much 
money? Or is cost not a factor?
    Dr. Anderson. So, this is something, obviously, that is 
going to be a, we are going to have to--we will need 
congressional support, obviously, for any authorization or 
appropriations.
    It is my view that, notwithstanding the pressure on the 
budget, that this is something that we will able to afford. And 
the costs will be spaced out over time.
    Mr. Conaway. Yeah. Dr. Anderson, that, I would prefer you 
to have said that I've got a rigorous analysis to come to that 
conclusion. I know that is what you want it to be.
    But let me ask you this, and this is just a bit of a real 
weird, odd observation. In your testimony you said the third 
leg would be to move 2,500 airmen from Royal Air Force Base 
Mildenhall to Germany, was planned to move to Germany, and that 
you are not going to do that.
    Is there a plan someplace in the bowels of the Department 
that when that original decision was to move those air units, 
the air refueling and special ops [operations], move to 
Germany, was there some sort of a justification plan that was 
done at that point in time that would have had some lofty 
phrases as to why you made--why that made sense? And now we are 
unwinding that decision. And the only rationale you put in your 
statement is that they would remain in the U.K., thus ensuring 
uninterrupted readiness and responsiveness of these units.
    That leads me to believe that if we had gone through with a 
move to Germany that it would have in fact interrupted their 
readiness and responsiveness. That is not what you are telling 
us, is it?
    Dr. Anderson. So, I am--whatever the justification for 
initially having the plan to move them to Germany, I am not 
familiar with that. That I believe precedes my time in my 
current position.
    But what I, what we do know is that in order to meet the 
cap of the reduction in Germany this was a----
    Mr. Conaway. Okay. So, this----
    Dr. Anderson [continuing]. Move that makes sense.
    Mr. Conaway [continuing]. This wasn't driven by mission, 
this was driven by the caps?
    Dr. Anderson. Well, there is the cap and there is also the 
added benefit, as pointed out in the statement, that there are 
efficiencies to, you know, remaining in with our close 
British----
    Mr. Conaway. How much money was spent in Germany on the 
receiving base before we unwound this decision?
    Dr. Anderson. I don't have that detail, sir. I would have 
to come back to you on that.
    Mr. Conaway. Do you have any idea when that decision was 
made to move that unit, those 2,500 airmen and, I assume, their 
families to Germany? Would we have been spending money at the 
receiving base in Germany at this point, or during that 
timeframe?
    Dr. Anderson. I will have to save that for the record and 
come back to you on it, Congressman.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Conaway. Okay. If you wouldn't mind doing that, I would 
appreciate it.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    I do just have to make a comment. And I know you gentlemen 
are doing the job that is assigned you by the Pentagon. This is 
why we need an actual Under Secretary for Policy. And this is 
why we need the positions of the Pentagon filled.
    I understand, Dr. Anderson, you are in a difficult 
position. You weren't here for the plans. You are in an acting 
position now. But there is a level of detail in a bipartisan 
way. This is just not acceptable from the Department of Defense 
that, you know, on a move of this kind, you know, whatever you 
guys may think of Congress, whatever you may think of this 
committee, it is our responsibility to exercise oversight of 
this.
    The American people in their infinite wisdom have put us in 
these chairs. And we are not getting the level of insight in 
this decision that we should. And I don't know if it is because 
you are in an acting position, acting in the role of, or 
whatever, but, you know, I wasn't in on that, I didn't hear 
that, I would have to talk to this person, I would have to talk 
to that person.
    You know, and again, you are doing what the Pentagon told 
you to do, and I am not taking this out on you. But for the 
Pentagon to send this over on a decision at this level and not 
tell us about here is what we did, here is the timeline, here 
is the person we talked to, we talked to this person, we didn't 
talk to that person, I mean, the level of detail that we are 
getting here is just not acceptable for us to exercise our 
oversight and for what the Pentagon should be putting in front 
of us.
    So, I just want that on the record from my perspective. And 
I have the strong sense that my colleagues on both sides of the 
aisle would agree with me on that point.
    So, on this and other decisions we just need to hear better 
what the hell is going on so that we can exercise our 
oversight.
    And if you have a comment on that, you are welcome to. But 
that is, it is a very frustrating briefing at this point.
    Dr. Anderson. So, Congressman, it is clearly not the case 
that we are not providing the details. We, at this stage of the 
process we don't have that level of detail. But we commit, as 
the plan matures and we develop those details, that we will, we 
will share them with the committee.
    The Chairman. That is alarming in its own right. But, but I 
take your point.
    Okay. Next up we have Ms. Davis, recognized for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you for being 
here, obviously doing your job. We totally understand that.
    But I, I am taken aback as well by the language that you 
are developing in maturing the plan. When do you think the plan 
is going to be matured?
    Dr. Anderson. So, so I would anticipate that, you know, by 
early 2021, early in the new year that we will have a much more 
mature plan to share with Congress.
    Mrs. Davis. And, General Allvin, did you want to respond to 
that as well? Is that your timeframe?
    General Allvin. I don't have any better answer than that. 
Quite frankly, a lot of it will depend upon what Dr. Anderson 
has spoken about, all of the variables that need to come 
together.
    But to get the, as the chairman said, to get the details 
that would be satisfying I would imagine would be into that 
timeframe.
    Mrs. Davis. And I wonder, Dr. Anderson, of the details that 
you are talking about, what is it that concerns you the most 
that you don't have a feel for, that you don't feel is cooked?
    Dr. Anderson. So, from a policy perspective, I am very 
comfortable with this plan. And, in fact, I think it is going 
to serve the interests of the National Defense Strategy that we 
promulgated in January 2018. So, at that level I am very, very 
pleased with the approach. I think it is going to enhance 
deterrence, and assure allies, and provide us more flexibility.
    You know, I, too, am interested in the cost details. Cost 
is, you know, as we think about budgets in the future, 
obviously a large concern. So, that is something that we will 
certainly be keeping an eye on.
    Mrs. Davis. Okay. Thank you.
    I know that in the testimony that you all presented you 
pointed to airmen that had been scheduled to rebase to Germany 
and that they would remain in the U.K. And you said that they 
would do so to ensure that the uninterrupted readiness and 
responsiveness of these units would be realized.
    I am wondering about other units that have been designated 
to be moved experiencing an interruption in their readiness and 
responsiveness. What can we expect on that level?
    Dr. Anderson. So, there will be a timing and a phasing and 
a sequencing of all these moves. I can say with confidence they 
are not going to all happen at once. They will be spaced out 
over time. And because of that, we will be very attuned to any 
temporary disruption or interruptions in readiness or 
capabilities.
    Mrs. Davis. And you will be planning for that?
    Dr. Anderson. Yes, indeed. And I would also note, in the 
broader sweep of NATO's history we have made moves, even larger 
moves. And we have done so without compromising our overall 
capabilities----
    Mrs. Davis. Thank you.
    Dr. Anderson [continuing]. Or readiness.
    Mrs. Davis. Thank you, sir. Thank you.
    General Allvin, you mentioned, you did mention the 
families. And we know how critical and how important that is. 
The men and women who serve our country have a vote in this, 
and they do it often by their feet. And so I wonder what you 
are doing to mitigate the impact on those families? And what 
costs do you incur as you attempt to realign them?
    General Allvin. Congresswoman, primarily one of the five 
that the Secretary laid out was take care of the service 
members and their families. I think that goes to, largely, the 
idea of planning this out ahead of time to be able to ensure 
that when the move happens--and, of course, as you mentioned, 
ma'am, the service members and their families they have to be 
resilient because they move here, and there, and everywhere. 
That is a part of life, but we don't need to make it more 
complicated.
    So, the idea that as the moves are being contemplated the 
Department ensures, and the chairman is very engaged on this as 
well, that the landing location, wherever that will be when 
these moves happen, will be in, you know, full consultation 
with the services who are responsible for the organize, train, 
and equip to provide the combatant commands, as well as this 
body and others to ensure that, as I said before, measure 
twice, cut once. So, we won't----
    Mrs. Davis. Do you have a sense that it is really important 
to surge personnel in order to address the needs of families? 
Often families feel that it takes forever for them to get the 
attention that they need in order to plan themselves for a move 
that can be detrimental in terms of the education of their 
children, and many other facets of this. What will be done to 
bring on more personnel in order to address this?
    General Allvin. First of all, Congresswoman, I would say 
the way you put it is very eloquent and very accurate. I 
anticipate that the chairman will work with the Joint Chiefs, 
as well as the service, active service chiefs to ensure that as 
those moves, which are executed by the services, that they are 
doing that, as you said, surge the personnel to where you are 
able to communicate what is required and how they can 
anticipate that, so they at least have some predictability.
    Mrs. Davis. Thank you, sir. My time is up.
    The Chairman. Thank you.
    Mr. Bacon is recognized for 5 minutes.
    Mr. Bacon. Thank you, Mr. Chairman.
    First of all, I would just start off by congratulating 
General Allvin. I have had multiple assignments with him. And 
for him to be getting his fourth star, the Air Force is 
selecting the right person. So, congratulations to you.
    We have a little bit of a debate up here on the forward 
presence of forces. And I believe that we absolutely need 
forward presence in Poland and the Baltics. We have seen in the 
past with Georgia and Ukraine how Russia responds to perceived 
weakness. So, I am a big supporter of making sure we have a 
presence. I would even prefer a permanent presence in Poland 
and the Baltics to make our intentions and our deterrence 
clear.
    My first question is to Dr. Anderson, if I may. I used to 
be the commander at Ramstein and I was the deputy at Third Air 
Force. What's our plans for Spangdahlem in the long run? 
Because I believe both Spangdahlem and Ramstein are strategic 
bases that we have to preserve because of the airlift capacity.
    The airlift capacity cannot go strictly on Ramstein. We 
know that. And it is in the perfect spot for un-air-refueled C-
17s to get there and then get to the Middle East or Africa. And 
without Spangdahlem I think we are in trouble.
    So, I was just curious your perspective.
    Dr. Anderson. So, certainly in the context of moving to 
greater rotational forces there is still a role for hubs, 
logistics hubs and air bases that can and should be retained. 
So that is part of our thinking on the European force structure 
reposturing.
    Mr. Bacon. So, your intention is to retain Spangdahlem as 
an airlift hub?
    Dr. Anderson. So, I know that we are going to retain the 
hubs. I want to be a little bit--I want to caveat this a little 
bit because I am not familiar with the exact nature of what is 
being planned for that particular base.
    Mr. Bacon. Well, just let me put my perspective out there.
    That whole capacity can't fall on Ramstein. I know it. I 
just know it firsthand. And both those bases are your primary 
conduits in the Middle East and Africa, and would be for the 
rest of Europe if you had troubles in Poland or in the Baltics. 
So, I just, I am worried about pulling out of Spangdahlem 
totally.
    I can see some force realignment. But that airlift hub is 
critical.
    Dr. Anderson. Yes. And there are defense planners who are 
fully aware of those, those advantages. Yes, sir.
    Mr. Bacon. Another question. I always was concerned about 
pulling out of Mildenhall. The United Kingdom, Great Britain, 
is our best ally in NATO. Through thick and thin they have been 
with us. I didn't really care for how we handled that to begin 
with. I am glad that we are maintaining force presence at 
Mildenhall.
    What is the plan for Fairford, because we were talking of 
moving the RC-135s there?
    Dr. Anderson. So, I am not, I am not sure. I don't know if 
my colleague is aware of the particulars on that?
    General Allvin. Congressman, I will take that for the 
record because----
    Mr. Bacon. Fine.
    General Allvin [continuing]. I think that having 
experienced Europe as you have as well, you understand that. 
And so I will, in the context of what General Wolters is 
currently pursuing, we will get, we will take that for the 
record and get back to you.
    [The information referred to can be found in the Appendix 
on page 59.]
    General Allvin. But to your point on Mildenhall, as you 
recall it was a European infrastructure consolidation which was 
made in a different time. And so Mildenhall, while not only 
serving as a refueling, can also help augment that critical 
through-flow for enabling global operations as an airlift hub 
as well, can help to augment those two bases you mentioned in 
Germany, sir.
    Mr. Bacon. Let me just plant this thought, too. We need to 
build a strong relationship with Great Britain when it comes to 
reconnaissance. We have sold them RC-135s. We operate out of 
there. I think it would be wise to have a joint base with the 
U.K. and ourselves doing the RC-135 operations. You get great 
synergy, and we both, and we both gain from it. It's a win-win. 
So, I am a proponent for it.
    Let me just close on this. I am a little concerned about 
where we are going with Germany. I think we have a growing 
rift. They used to be on the front lines, you know, obviously 
in the Cold War, but now they are more of the logistics hub. 
And I am concerned that we are burning bridges with the 
populace and the political leadership there, with a country 
that we absolutely have to have a good rapport with if we have 
a conflict with Russia down the road.
    Are we at threat of burning bridges too far with Germany? 
Because that should be a concern to us.
    I defer to you, Dr. Anderson.
    Dr. Anderson. Well, a couple points. I mean, Germany 
certainly plays a constructive role. They have been helpful in 
Afghanistan, in Iraq, and also been an outstanding partner in 
counterterrorism activities. All that said, the President and 
the Secretary are absolutely right in asserting that Germany 
can and should pay more in terms of its defense budget.
    The Wales Pledge was agreed to unanimously in 2014 to get 
to 2 percent within 10 years. And Germany is currently lagging 
at about 1.5 percent.
    They have, they do have a plan to get to 2 percent, but 
that is not going to happen by, by their terms, by 2030. So, we 
would certainly encourage Berlin to advance that timeline.
    Mr. Bacon. So, Mr. Chair, I will just close with this, that 
they are paying under 2 percent, but we still need them to have 
a strong alliance. So, we have to find a way to make that work. 
And I will just say, hey, we are going to have a great Vice 
Chief of Staff.
    Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Garamendi is recognized for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    The Chairman. I think we lost you there, John. Are you 
still with us?
    Mr. Garamendi. I am more and more convinced--I am. I should 
be, should be there.
    The Chairman. Yeah. Keep going.
    Yeah, if you are speaking we can no longer hear you. 
Appreciate that helpful insight.
    Yeah, I am sorry, John, we have a connection problem here 
because we are not hearing you. You are moving stiltedly. So, 
we will see if we can fix that.
    In the meantime I have--I don't see him on the screen now. 
Mr. Cisneros is the next one who is up.
    Mr. Cisneros, you are recognized for 5 minutes if your 
device functions. Go ahead.
    Mr. Cisneros. Thank you, Mr. Chairman. I appreciate that. 
And thanks to our panel for being here today.
    And I know this has been asked, but I will kind of ask it 
again. But based on Secretary Esper's comments, this 
realignment will be expensive, not to mention the impact of 
realignment on morale for our service members and their 
families.
    Does the Department expect any savings or increased burden-
sharing contributions from Germany as a result of the 
realignment that would compensate for the cost of the proposed 
force posture changes?
    General Allvin, what is the plan for the military families 
of U.S. service members who are affected by this realignment?
    Dr. Anderson. So, let me start with the question on 
Germany.
    You know, certainly it is our hope, and it is our, indeed, 
our expectation that Germany will live up to the Wales Pledge 
going forward. And I would say even more broadly with respect 
to this realignment plan for European force structure we will 
look for opportunities where our allies can contribute in terms 
of the funding element of this. Because this is a, this does 
need to be a shared burden.
    With respect to the families, and I will ask my counterpart 
to elaborate, but certainly this ties in directly with 
Secretary Esper's commitment that he stated on numerous 
occasions that we are going to take care of our service members 
and our families throughout this entire process.
    And what that means in very practical terms is as the plan 
matures and we have timelines, we will keep them informed.
    And I would also note that there are no, there are no near-
term--by that, in the next couple months--PCS moves that are 
currently envisioned. All that will be scoped out and 
communicated appropriately.
    General Allvin. And, Congressman, I will follow up with 
what Dr. Anderson mentioned.
    The plan really for the families is, as I mentioned when I 
was speaking with Representative Davis, understanding the scope 
and the ultimate destination which has to be, has to be, 100 
percent in consultation with this body as well as the services. 
The services who will eventually, they are the ones who do the 
organize, train, and equip, they will be part and parcel of 
understanding that particular puzzle and the right location for 
those service members and families to go who will be rotated 
back.
    But, as Representative Davis said, I feel very confident 
that I can speak on behalf of the services on this, to say that 
surging ahead of time, surging the people to ensure that the 
families are made well aware and have a predictability, because 
that is--we understand families need to be resilient. The best 
that we can do on this is to give them the predictability so 
they aren't sort of whiplashing around between one eventuality 
and the next.
    Mr. Cisneros. Thank you.
    So, Mr. Anderson, you know, there is talk about moving an 
F-16 squadron to Italy from Germany, also moving 2,000 troops 
to Belgium. But yet, you know, Belgium nor Italy meet NATO's 
target for defense spending, which seems to be inconsistent 
with the administration's reasoning of moving these troops out.
    So, how can you speak towards the inconsistency of moving, 
the President, with all the comments that the President has 
made that Germany has not paid its due and not doing its part, 
so we are moving troops out, but yet we are moving troops into 
other areas of NATO that have also been--not met their part as 
well, their financial obligations?
    Dr. Anderson. So, in the formulation of the concept, which 
is transitioning to a plan, the defense planners did not, you 
know, look at a scorecard of who is paying what as a 
determining factor on where rotationally units would go. They 
made these assessments based upon their best military judgment 
and what makes sense operationally in terms of the broader 
restructuring.
    Mr. Cisneros. All right. So, the President, you know, his 
delinquent, his comment about delinquent and they haven't paid 
their NATO fees, this is not the reason? We are not punishing 
Germany for moving these troops out?
    Dr. Anderson. So, again, going back to an earlier point, 
you know, EUCOM has been thinking about force posture moves on 
a continuous basis, and then received specific direction from 
Secretary Esper in the January/February timeframe. And it is 
fair to say that the President's guidance did accelerate the 
process and has brought us to this point where we are sharing 
the concept.
    The Chairman. Thank you. The gentleman's time has expired.
    Ms. Gabbard is next, and is recognized for 5 minutes.
    Ms. Gabbard. Thank you very much, Mr. Chairman. And thank 
you to the witnesses here.
    I know earlier you briefly touched on impacts to AFRICOM. 
But I wonder if you can go into a little bit more detail both 
on where AFRICOM missions will pull their forces from with this 
change, given the shared troops with the Europe AOR?
    And, also, how will this change impact any intel-gathering 
[intelligence-gathering] capabilities or other shared 
capabilities that currently exist between the two commands?
    Dr. Anderson. So, with respect to AFRICOM, ma'am, there, 
too, the Department is undergoing a combatant command blank 
slate review of missions, and tasks, and deployments. And that 
is currently ongoing.
    And when Secretary Esper makes final decisions with respect 
to the positioning of those forces we will, we will share those 
appropriately.
    With respect to intelligence and warning, certainly agree 
with the point or the importance of that on multiple fronts, to 
include going back to our earlier discussion about moving 
rotational forces to the European continent and back to the 
United States. It is absolutely imperative that we have 
appropriate intelligence and surveillance that will provide us 
sufficient indications and warning time in order to make these 
moves.
    Ms. Gabbard. And forgive me if you already talked about 
this. I didn't hear it. But, how will this new realignment 
impact the burden-sharing contributions that come from Germany? 
And how that will impact them as well as how it will impact us?
    Dr. Anderson. So, moving forward on this realignment we 
will look for opportunities where allies can contribute, you 
know, financially in a meaningful way. You know, some of those 
costs will obviously be ours, but we will look for those 
opportunities.
    Then I would say more broadly, we continue to expect our 
European allies to live up and to fulfill the Wales Pledge that 
was unanimously agreed to in 2014.
    I would also say on the cost front and the financial front 
that NATO has made progress. There are more countries now that 
are at or above the 2 percent limit. Those include not only, of 
course, ourselves, the United States, but Bulgaria, Greece, the 
United Kingdom, Estonia, Romania, Lithuania, Latvia, and also 
Poland. And there are some other countries that soon will be at 
that 2 percent level. So, that is a positive trajectory.
    Ms. Gabbard. So, specifically with Germany, I mean, you 
have a very specific number of troops that will be repositioned 
back here in the United States. Are you not able to speak 
specifically to how that burden-sharing agreement will be 
impacted, both in Germany and the United States, because it has 
to be renegotiated, or you don't know?
    Dr. Anderson. Well, with respect to the target for defense 
spending, Germany, as with the other NATO partners, is expected 
to reach the 2 percent. And they have articulated that they can 
get there in 2030. It is our position that they can and they 
should move that timeline much earlier to get to 2 percent.
    And I would also say that it's, you know, we talk about the 
2 percent level all the time, and for the appropriate reasons. 
But there is also the, you know, we have to focus on not just 
the number but what are actually the capabilities. And there 
it's, you know, there is a 20 percent target of defense 
spending that would be invested in actual no kidding military 
capabilities.
    Ms. Gabbard. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Torres Small is recognized for 5 minutes.
    Ms. Torres Small. Thank you, Mr. Chairman. And thank you 
both so much for being here. I really appreciate your service 
to our country.
    Acting Under Secretary Anderson, I wanted to follow up on 
the conversation you had with Congressmembers Wilson and 
Houlahan about AFRICOM headquarters. And really appreciate your 
conversation mentioning the factors that you would discuss, 
that you would review.
    So, you mentioned cost and receptivity of the host nation 
as factors for consideration in the relocation. Will you also 
consider time zone?
    Dr. Anderson. I think I am not sure how--I don't think that 
would be a big consideration, ma'am.
    Ms. Torres Small. Okay. In terms of ease of communication 
and coordination?
    Dr. Anderson. Yeah. I mean, we have now, we have certain, 
obviously we have combatant commands that are in different time 
zones. And, you know, both General Allvin and myself we, we 
just manage that. Right? Sometimes we have late night calls or 
early morning calls, depending on which combatant command we 
are talking about. I do not see that as a big issue in the 
considerations.
    Ms. Torres Small. Okay. What about proximity to the 
continent?
    Dr. Anderson. So, there, again, I don't want to get beyond 
the three broad possible destinations, whether it be in the 
European continent, or in Africa, or the United States. They 
all have particular advantages and disadvantages that need to 
be sorted out.
    Ms. Torres Small. And part of making that decisions 
process--making that decision is identifying all of those 
advantages and disadvantages; correct?
    Dr. Anderson. Yes.
    Ms. Torres Small. So, would you consider as one of those 
advantages or disadvantages proximity to the continent?
    Dr. Anderson. To----
    Ms. Torres Small. To Africa.
    Dr. Anderson. To Africa. That is among the other, the 
other--among the considerations. Yes, ma'am.
    Ms. Torres Small. Okay. And are there any other 
considerations that you think are important for determining the 
headquarters for AFRICOM?
    Dr. Anderson. I think the ones that we have talked about 
are the main ones.
    Ms. Torres Small. So, in your response to Congresswoman 
Houlahan you committed to ensuring that the decision would be 
made in consultation with Congress. And I deeply appreciate 
that, and also appreciate you reaffirming that for Chairman 
Smith and Congresswoman Davis regarding the entire realignment.
    In regards to AFRICOM headquarters, will you commit to 
ensuring that DOD provides an assessment of all the factors we 
just identified and present them to this committee in advance 
of that determination?
    Dr. Anderson. Yes, I commit to that.
    Ms. Torres Small. Thank you. I appreciate that because it 
is deeply important. These are vital decisions that affect our 
deterrence posture, our relationship with allies, and all of 
our national security. Do you agree with that?
    Dr. Anderson. Yes. The committee obviously has a tremendous 
role to play in this process.
    Ms. Torres Small. Thank you very much.
    I wonder then why the decision was made to move AFRICOM 
headquarters in the first place without such consultation?
    Dr. Anderson. So, part of that, as mentioned previously in 
the discussion, is to, is to seek operational efficiencies, and 
also to, to meet the directed cap of the reductions regarding 
Germany.
    Ms. Torres Small. Would consultation with Congress have 
impacted that?
    Dr. Anderson. I'm not sure if it would or would not have 
impacted that.
    Ms. Torres Small. So, what is the difference between now as 
you identify the future location and the importance of 
consultation with Congress at that point compared to the 
decision to relocate it in the first place?
    Dr. Anderson. So, as for the actual, the consideration that 
came up that the EUCOM staff came up with, I cannot speak to 
that directly. I can say that, you know, we are, are on a bit, 
have been on a bit of an accelerated timeline. But now we are 
in a different place, and as the plan matures, as you have 
heard, we absolutely will consult with Congress as this plan 
matures.
    Ms. Torres Small. So there is no articulable distinction 
between the need for consultation to move headquarters in the 
first place and the final location. Both are important 
decisions that Congress should be part of and consulted about.
    Dr. Anderson. And we have, we have briefed members, staff 
members on these proposed moves.
    Ms. Torres Small. Thank you. I yield the remainder of my 
time.
    The Chairman. Thank you.
    Mr. Keating, are you with us?
    Mr. Keating. Yes, I am, Mr. Chairman.
    The Chairman. You are recognized for 5 minutes.
    Mr. Keating. Thank you.
    Dr. Anderson, you said, quote unquote, that the decision 
with removing the nearly 12,000 troops in Germany was a 
``Presidential decision.'' Then you went on in your testimony 
to talk about the fact that Secretary Esper has been doing a 
review of rotations in Europe.
    Now, I want to--it is important to this committee and our 
relationship and our decision making to understand the joinder 
of the two things because you didn't connect them one way or 
the other.
    I want to ask you specifically, was that review by 
Secretary Esper then made concrete, did he place that on the 
President's desk for a decision? Or, did the President make 
that decision and then inform Secretary Esper? Which way was 
it?
    Dr. Anderson. So, Congressman, I am not privy to 
discussions between the President and----
    Mr. Keating. Well, but----
    Dr. Anderson [continuing]. The Secretary, so I can't 
comment on that.
    Mr. Keating [continuing]. I want to, I want to echo what 
the chairman said: then why are you here?
    This committee deserves answers to it. That is critical to 
our decision making. In fact, there were about 4 or 5 days 
between this time that Germany informed the President, that 
Chancellor Merkel informed the President that she is likely not 
attending the G7 summit when this was announced. Do you think 
that is a coincidence, a mere coincidence?
    Or, more importantly, since you may not know the answer to 
that, don't you think that creates a tension and a problem with 
one of our central members of one of our central alliances to 
our security? Don't you see the appearance of that?
    Dr. Anderson. So, I would say it is articulated very 
clearly in our National Defense Strategy, Line of Effort 2, we 
are committed to our allies and partners----
    Mr. Keating. Answer the question. Don't you understand the 
problem with that appearance? Yes or no? This is the question--
--
    Dr. Anderson. The problem with it, Congressman----
    Mr. Keating. Sorry?
    The Chairman. If I could translate, the question basically 
is the appearance of, okay, Germany doesn't come to the G7 
summit, which the President doesn't like. A couple days later 
the President announces that he is pulling 12,000 troops out of 
Germany.
    It appeared to be a petulant response to something he 
didn't like that Germany did. And I guess the question--sorry, 
Bill, I will give you more time--would be twofold: would be, 
one, doesn't that appearance look bad? And, two, what did the 
Department do to try to make sure that that appearance didn't 
create the obvious problem?
    Dr. Anderson. Well, sometimes after the fact is not because 
of the fact. And I would note historically, for example, that 
in 2004 the Bush administration decided to remove 30,000 troops 
from the European theater, including a lot of those from 
Germany. And at the time that was, there was a lot of 
speculation that that was because Germany did not support us in 
the Gulf War.
    And that----
    Mr. Keating. May I reclaim my time?
    Dr. Anderson. So, you know, I can only speak to the plan 
and the connection to the NDS. And that is there is a very, 
there is a very positive relationship there. This will improve 
our security.
    Mr. Keating. Mr. Chairman, could I reclaim my time and just 
follow up?
    The Chairman. Yes. Yes, go ahead.
    So, it is, it is awkward with the back and forth on the 
video. But, yes, Mr. Keating, please proceed.
    Mr. Keating. Thank you.
    Now, you also said that Secretary Esper's plan involved a 
lot of strategy with rotation, make sure. One of the things you 
cited in your testimony was the deterrence to Russia and the 
importance of that. And clearly, we all agree, both--everyone 
in this committee agrees with that.
    But, at the same time, the President interceded with 
cutting half a billion dollars extra out of the European 
Deterrence Initiative [EDI] which was consistent in line with 
our National Defense Strategy.
    Now, how does that make sense? And, again, was that the 
President's decision or was that part of Secretary Esper's 
strategic plan? Because it is in contradiction with Secretary 
Esper's strategic plan to be making those cuts and using them 
to paint the wall at the border black. Half a billion dollars.
    Now, tell me where the consistency of that is and who made 
that decision? Was that part of a strategic decision by the 
Secretary?
    Dr. Anderson. So, with respect to the European Deterrence 
Initiative, there have been a number of military infrastructure 
projects that have come to completion. And because of that the 
budget request has been--there is a slight, a slight decrease 
in that, in that funding level.
    But we are very confident that the funding level is indeed 
appropriate, and that EDI is consistent with and will be 
complementary to the proposed force structure posture----
    Mr. Keating. I will say in closing I'd like----
    Dr. Anderson [continuing]. Envisioned here.
    Mr. Keating [continuing]. I would conclude saying I will 
tell you what isn't consistent. What isn't consistent, given 
even past relationships with this committee and our defense, 
and our Secretary and, indeed, administrations, what is not 
consistent is getting a straight answer to questions and 
circumventing the will of this committee and Congress.
    I yield back.
    The Chairman. Mr. Garamendi wants to give it another shot. 
So, we will, we will try that.
    John, you are on again.
    Mr. Garamendi. Well, here I am. Hopefully it will work.
    I am going to make this very, very short. This hearing has 
been extremely important and very [inaudible]. No justification 
for what is being proposed here.
    This whole thing started as the proceeding that his 
comment--[inaudible] 6 months later with the entire Department 
of Defense trying to figure out how to make it happen. Bottom 
line is, it makes no sense whatsoever, not from beginning to 
end. And we can go on for a couple days about that.
    Bottom line is in the National Defense Authorization Act we 
simply have to stop this, stop this foolishness.
    I will yield back at this point.
    The Chairman. Thank you. Thank you, John. I appreciate 
that.
    Mr. Brown is up next. Anthony? Anthony is with us. Go 
ahead.
    Mr. Brown. Yes, thank you. Thank you, Mr. Chairman. And I 
want to thank my colleagues on the committee on both side of 
the aisle for their, you know, comprehensive set of questions. 
And I, too, am disappointed with the incompleteness and in some 
cases the shallowness of the responses.
    Nevertheless, most of my questions have been asked. So, let 
me ask about some specific issues. And both of my questions go 
to General Allvin.
    As part of the realignment plan Air Force F-16 fighters 
are, the proposal is to shift them from Germany to Italy. 
Secretary Esper stated, as many have commented today, that the 
changes are not meant as a punishment to Germany but are part 
of an effort to ``strengthen the North Atlantic Treaty 
Organization and enhance the deterrence of Russia.''
    So, my question is, how does a move of F-16s southeast in a 
distance of less than 400 kilometers improve efforts to deter 
Russian aggression?
    What is the cost of moving the F-16s down to Aviano?
    And will updates need be made to the bases, and the 
hangars, and other facilities to house these additional 
aircraft?
    General Allvin. Congressman, I will address the last two 
first. And that, again, those cost estimates are ongoing. I 
don't have the answer to that. And I know if we go back to 
EUCOM they haven't finalized those cost estimates to this 
point.
    To the question of what good does it do to move Air Force 
fighters from Germany to Italy--I am quoting General Wolters 
now, I believe in some of his earlier responses--is the idea is 
you are sort of broadening the attack surface.
    Really, the idea that Russia is just inclined to do things 
in the Baltic region because that is where we first 
strengthened up, I think they have perhaps designs for malign 
influence throughout the periphery. And so, Southeast Europe 
becomes as important as--so, the Black Sea becomes as important 
as the Baltic Sea. And the idea that we would expand down into 
Italy and enhance that ability in Aviano to be able to better 
address some of the things that are happening in the Eastern 
Mediterranean and the Black Sea as well.
    It really, it puts another axis of approach for the EUCOM 
commander. And that was why General Wolters opted for that 
particular piece of the overall puzzle.
    Mr. Brown. Well, I appreciate that. I do appreciate that 
rationale and explanation.
    The second question I had, again a very specific question, 
the 7th Army Training Command in Grafenwoehr--and that, as you 
know, is a very large training facility, 233 square kilometers 
used by both U.S. and NATO allies for major training exercises, 
field artillery exercises, large armor exercises--is there any 
intention to close Grafenwoehr?
    Are there intentions to open additional major training 
centers anywhere else in Europe?
    General Allvin. Congressman, that is a very important 
question.
    To my knowledge, there is not any plans to close it. But I 
will take that for the record. Because your point is well taken 
about the capabilities there. And we will take that for the 
record and get back to you.
    At this point, my understanding of it there is not a plan 
to close that important training facility. But I owe you a more 
complete answer, sir.
    [The information referred to can be found in the Appendix 
on page 60.]
    Mr. Brown. And let me just finish then with this statement.
    You know, we have heard a lot about dynamic force 
employment today. And we find that in the National Defense 
Strategy. That is a concept that deals, as I understand, with 
operational deployment to eliminate predictability. And I get a 
sense that we are using it in today's hearing interchangeably, 
and perhaps inappropriately, with rotational force presence.
    We have a strategic commitment to NATO to be present in 
Europe, either it is rotational or it is permanent. But in many 
ways it is predictable because rotational force deployments or 
presence is heel to toe. So, I am not quite clear on how going 
to a more rotational force presence in Europe maintains our 
commitment to our strategic presence in Europe.
    And you don't have time to really respond. If you could 
take that for the record and just tell me how we are 
accomplishing dynamic force employment at the same time as 
rotational force present in Europe.
    Thank you, Mr. Chairman, I yield back.
    [The information referred to can be found in the Appendix 
on page 60.]
    The Chairman. Thank you.
    I have Mr. Brindisi on the list here. I don't see him on 
the screen anymore.
    And Ms. Slotkin, is she up there somewhere? Or she is--
Okay.
    I am sorry. So, Mr. Golden and Mrs. Trahan are not up there 
either? Okay.
    Ms. Escobar, you are not on the list but you are here. If 
you wish, you may--I yield 5 minutes to you. Let's do that.
    Ms. Escobar. Thank you, Mr. Chairman. And many thanks to 
our witnesses.
    I would like to join in the chorus of voices that on a 
bipartisan basis have expressed disappointment at the lack of 
detail during this hearing today. But I do appreciate that you 
are here.
    Lieutenant General Allvin, I have some questions for you. I 
want to drill down just a little bit more on the question of 
sort of cost-benefit analysis which began with the chairman's 
initial question.
    What impacts do you foresee the realignment having on the 
Army's limited MFGI [Mobilization Force Generation 
Installation] sites like Fort Bliss?
    I represent Congressional District 16 in Texas, so 
obviously there is a direct concern for me on that front.
    General Allvin. Ma'am, I do have to start with that I am 
not familiar with that. So, I will, that is one we will take 
for the record because I am not, as far as site planning I am 
not familiar enough to give you a complete answer on the 
service impacts of the concept.
    [The information referred to can be found in the Appendix 
on page 60.]
    Ms. Escobar. Okay. Also to be taken back and, hopefully, so 
that we can learn a little bit more as you learn a little bit 
more about this, one of the concerns that we have or that my 
office has and that we have expressed to different parties 
through leadership is that there are current infrastructure 
limitations that prevent units from meeting Army standards for 
efficiently deploying an armored brigade combat team. And so, I 
would like for you to please look into that as well and get 
back to me when possible.
    And then would also like to learn more about whether there 
would be infrastructure improvements that could be made in 
order to address those deficiencies that, you know, that we may 
see this domino effect down the line, so would like to hear 
back on that.
    [The information referred to can be found in the Appendix 
on page 60.]
    Ms. Escobar. And then just want to say, finally, 11,900 
troops strikes me as a significant cut to the force in the 
region. How do you expect this to impact operations? What will 
we have to sacrifice?
    General Allvin. So, ma'am, to be clear, understand by 
saying this I don't want to diminish the point that you make 
but, in fact, the 11,900 in the current concept aren't all 
leaving the region. So, there will be about half those that 
will come off, half of those will be better dispersed for the 
region.
    But your point is still a valid one in understanding how it 
will affect our approach to the region. And I think that gets 
to the point of understanding how we will execute the 
rotational forces.
    And to the point by Representative Escobar, I believe, on 
difference between dynamic force employment and rotational 
forces, this really does--is at the heart of trying to 
institute this new approach to deterrence because the current 
understanding of deterrence being presence, you have to be 
present there, that is a way to impact adversary decision 
calculus on when they are anticipating, whether they have a 
cost-benefit analysis of, you know, proceeding with malign 
behavior.
    But the idea that if we are trying to do this in accordance 
with the National Defense Strategy, with the myriad threats and 
adversaries that are emerging across the globe the services 
cannot maintain readiness and have all those forces forward. 
So, to try and bridge that gap is this new concept. The idea 
would be, through the operational unpredictability and the 
continued episodic presence, to be able to put doubt in the 
mind of an adversary who might be considering malign behavior.
    Deterrence is decision calculus, decision calculus based on 
perception. Perception is based on experience. So, we are 
trying to change the experience that will still have the same 
perception that that will have on the calculus. So, this is 
arguably a new approach to deterrence rather than just a 
forward presence.
    So, the idea would be to manage the risk throughout that 
transition in order to be able to have this idea of dynamic 
force employment yield the results of putting doubt in the 
minds of would-be adversaries.
    Ms. Escobar. I thank you, sir. And I look forward to your 
follow-up on those other questions.
    Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    As far as I know, I don't think anyone else seeks time at 
this point, so we are finished. I don't have anything.
    Mr. Thornberry, do you have anything for the good of the 
order?
    Mr. Thornberry. Yes. Thank you, Mr. Chairman.
    Gentlemen, I appreciate that conversation, but I don't 
think we should pigeonhole current deterrence as presence only. 
It is decision making. Now, presence can be, and forward-based 
presence has been a fundamental part of our deterrence strategy 
since the end of World War II.
    I take your point, you can have different ways to evoke the 
same result in an adversary's decision-making process, but I 
don't think it is fair to categorize current deterrence as 
presence only.
    I just want to say, Mr. Chairman, that I do appreciate both 
witnesses being here and trying to answer our questions. I 
think the bottom line is that, as you and I know, Secretary 
Esper has been conducting a review of all the combatant 
commands. It has been going on for months. He has kept us 
abreast of those reviews.
    What is different is that a couple staffers in the White 
House decided that they wanted to try to sell the President on 
an absolute troop cap for Germany. And if you will remember, at 
the beginning it had a cap on how many boots, American boots 
could even be on the ground at the same time, which would 
prevent Germany from being a transit point of our troops into 
the Middle East or Africa.
    They clearly hadn't thought through the consequences. They 
didn't know how it would be implemented. And so what has 
happened is Secretary Esper and folks at the Pentagon are 
trying to put lipstick on the pig, or make lemons out of 
lemonade, or whatever colloquialism you want to use.
    There may be some benefit to some of these moves, as I said 
at the beginning. My concern is, however, the underlying 
strength and unity of the alliance has not been a foremost 
consideration.
    And, so all of that, plus the status of the decision making 
at the Pentagon I think has to inform our conference 
negotiations with the Senate this year, and I presume in years 
to come.
    I yield back.
    The Chairman. Thank you. I just want to associate myself 
with you all. I completely agree with what Mr. Thornberry just 
said. And I do think that what Secretary Esper has done with 
the bottom-up review with the command by command, combatant 
command analysis, is a very appropriate thing to be doing. And 
he is trying to move our defense strategy forward.
    But I also concur that the coordination between what DOD is 
doing and what whims come into the heads in the White House has 
undermined that incredibly important effort.
    We just had the task force report that came out, led by 
Seth Moulton and Mr. Banks, sort of outlining here is the 
challenge we face. China and, you know, believe it or not, to 
some degree Russia have leapt ahead of us on certain key 
technologies, technologies that didn't exist, you know, 50 
years ago or even 20 years ago in some cases. And we have 
fallen behind in our ability to meet that threat.
    So, rethinking the way we meet the threats that we face 
within the Pentagon is enormously important. We can't keep 
doing things the same way we have done them to date. But that 
process takes thought focus. And, you know, I think we need to 
let the DOD do their job and not interfere with that effort. 
So, I certainly agree with that.
    And I also agree with the point on presence, which I think 
is very important. I get asked all the time, you know, we are 
not at war with whoever, why do we have, you know, the Soviet 
Union broke up, why do we have troops in Europe? You know, what 
are they doing there?
    They are there for a very important purpose. Mr. Thornberry 
outlined it a little bit, and we have heard it today. I think 
we need to make clearer to the American public why we have 
troops deployed in Europe, why we have troops deployed in South 
Korea, and Okinawa, and elsewhere. They serve an incredibly 
important purpose. And I think we need to make that clear so we 
can build support for what needs to be done to meet the threats 
that we face.
    So, I appreciate you gentlemen being here. Appreciate this 
discussion. I think it has been very helpful.
    And with that, we are adjourned.
    [Whereupon, at 2:12 p.m., the committee was adjourned.]    
=======================================================================

                            A P P E N D I X

                           September 30, 2020

    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 30, 2020

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 30, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. HOULAHAN

    General Allvin. The USEUCOM Joint Cyber Center (JCC) coordinates 
closely with NATO and Allied military organizations to counter Russian 
cyber threats. The JCC conducts three mutually reinforcing activities 
intended to enhance cyber defense of Allied and partner networks in 
support of USEUCOM strategic objectives. Three particular initiatives 
include:
    (1) The USEUCOM Cyberspace Security Cooperation team builds Allied 
and partner cyberspace capabilities to increase partner nation cyber 
defenses, establishing trusted relationships with partner nation cyber 
defense organizations.
    (2) The JCC's Information Exchange Cell shares strategic and 
operational reporting with Allies and partners across the theater to 
maintain shared situational awareness of cyber threats, to include 
Russian malign cyber activity.
    (3) Finally, the JCC Cyber Analytics team conducts tactical and 
technical cyber threat research that can be rapidly disseminated 
between US Government, industry, and partner nation network defenders. 
The team possesses deep technical expertise and leverages trust-based 
relationships to conduct real-time coordination and technical 
information sharing with Allies and partners.
    Posture changes would not affect this work as there is no foreseen 
impact to those capabilities in theater.   [See page 16.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY
    Dr. Anderson. The decision to divest of Royal Air Force (RAF) 
Mildenhall was made as part of the 2013 European Infrastructure 
Consolidation (EIC) process, the purpose of which was to reduce long-
term expenses through base consolidations. EIC was conducted at a time 
when DOD's strategic focus was shifting to the Pacific, and U.S. force 
presence was being reduced in Europe, including the inactivation of two 
U.S. Army Brigade Combat Teams. After Russia's occupation of Crimea in 
2014, the strategic environment in Europe changed significantly, with 
Russia re-emerging as a more immediate threat to our NATO Allies. The 
National Defense Strategy's (NDS) focus on Great Power Competition 
further influenced the choice to reverse this EIC decision in order to 
maintain the readiness of our special operations forces stationed at 
Mildenhall, and to retain the base's critical role as a refueling hub 
to support operations in Northern Europe.
    The U.S. Air Force has spent approximately $14 million at 
Spangdahlem Air Base in support of the EIC decision to close RAF 
Mildenhall. Congress authorized and appropriated additional funds for 
site preparation at Spangdahlem but these funds have not yet been 
expended.   [See page 27.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. BACON
    Dr. Anderson. The U.S. Air Force, with support from U.S. European 
Command (USEUCOM), will maintain the RC-135s at RAF Mildenhall, which 
offers future opportunities for co-located operations with similar 
Royal Air Force capabilities.
    The U.S. Air Force is planning for continued use of RAF Fairford as 
an agile basing location to support rotational missions such as the 
Bomber Task Force. RAF Fairford dynamically supports planned and 
emergent surge operations, which are critical to U.S. Air Forces 
Europe-Air Forces Africa's ability to deter Russia, strengthen NATO, 
and improve strategic and operational flexibility within USEUCOM.   
[See page 30.]
    General Allvin. The Air Force plans for continued use of RAF 
Fairford as an agile basing location to support rotational missions 
such as the Bomber Task Force. RAF Fairford dynamically supports 
planned and emergent surge operations which is critical to U.S. Air 
Forces Europe-Air Forces Africa ability to deter Russia, strengthen 
NATO, and improve strategic and operational flexibility within U.S. 
European Command (USEUCOM).
    The Air Force, with support from USEUCOM, plans to retain the RC-
135s at RAF Mildenhall at this time, which offers the future 
possibility for co-located operations with the Royal Air Force 
Airseeker mission.   [See page 30.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. BROWN
    Dr. Anderson. Dynamic force employment (DFE) and continuous 
rotational presence are not mutually exclusive. DOD currently employs a 
mix of enduring, heel-to-toe rotational presence in Europe and 
episodic, short-term DFE deployments, both to demonstrate our 
commitment to Allies and partners and to promote operational 
unpredictability to complicate adversary planning. Combined with our 
existing permanently stationed units, DOD continues to maintain a 
robust and ready force presence in Europe.   [See page 39.]
    General Allvin. There is no intention to close Grafenwoehr. Units 
from within Germany and throughout Europe will continue to use it for 
training.
    We do not have plans to open additional major training centers in 
Europe. However, we are aware of efforts by a number of Allies and 
partners to enhance national training center capabilities and capacity 
in Romania, Poland, Bulgaria, Ukraine, and Georgia.   [See page 39.]
    General Allvin. The NDS calls for U.S. forces to be strategically 
predictable, but operationally unpredictable. The complementary nature 
and utilization of rotational forces and Dynamic Force Employment (DFE) 
are an example of this NDS principle in action.
    DFE is a concept to proactively shape the strategic environment 
while building and maintaining readiness. The DFE operating model 
provides contingency response capabilities, ensures the long-term 
viability of the Joint Force for major combat, and conducts strategic 
engagement opportunities that shape the global environment.
    USEUCOM leverages the DFE model to re-affirm our commitment to 
Allies, deploy diverse military capabilities within the AOR to improve 
our deterrent posture, and demonstrate operational unpredictability to 
adversaries. DFE deployments have included posturing the HARRY S. 
TRUMAN strike group from the Mediterranean to the High North, deploying 
a Terminal High Altitude Defense (THAAD) battery to both Israel and 
Romania, Bomber Task Force missions throughout the AOR, and an F-35 
deployment to exercise with European Allies, demonstrating our ability 
to rapidly generate significant combat power across the AOR.
    Rotational Army, Marine, and Special Operations Forces (SOF) 
maintain a presence on the ground in strategic locations across the 
theater. These forces work alongside Allies and partners to deter 
aggression and build host nation defense capacity, interoperability, 
and readiness. In Eastern Europe, a rotational Armored Brigade Combat 
Team and Combat Aviation Brigade are deployed as part of Operation 
ATLANTIC RESOLVE to deter and are postured to respond if required. 
Rotational Marine Forces in Norway have improved an important position 
on NATO's northern periphery while training in Arctic conditions 
alongside our Norwegian allies.   [See page 39.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. ESCOBAR
    General Allvin. The Army just completed a Mobilization Force 
Generation Installation (MFGI) Assessment in March 2020, primarily 
focusing on those installations that could support the Army's response 
in a no-notice Contingency Plan activation. Fort Bliss, TX, is one of 
the Army's four active MFGIs which also include Fort Hood, TX, Fort 
Bragg, NC, and Schofield Barracks, HI. Fort Bliss, in particular brings 
great capacity and capability to both the Active and Reserve Component 
for the Army's force projection requirements around the world. Not only 
does it serve as one of our four active MFGIs, it is also one of the 
Army's Power Projection Platforms as well. The Army's MFGIs will 
continue to play an important role in mobilizing and generating ready 
Army capabilities for global employment.   [See page 40.]
    General Allvin. The Army routinely assesses deployment 
infrastructure capability to meet deployment goals. Through these 
assessments, the Army identified rail infrastructure projects needed to 
fully meet armored brigade combat team (ABCT) deployment goals at Fort 
Bliss, Fort Riley, and Fort Stewart.
    Surface Deployment and Distribution Command (SDDC) and the 
Transportation Engineering Agency (TEA) assess rail configuration and 
loading capacity as Fort Bliss' most significant limitation toward 
meeting the Army's 96-hour ABCT deployment goal. The Army validated 
this assessment through the Installation Status Report (ISR) process.
    A proposed rail project at Fort Bliss would construct a new 
mainline connection north of the Rail Deployment Complex to enable more 
efficient rail switching operations and consolidate operations away 
from the cantonment area. Additionally, the proposed project includes 
two loading tracks to increase the static end loading capacity and 
better meet ABCT deployment needs. This project is currently competing 
for funding in the FY 23-27 budget.
    SDDC and TEA also endorse container storage and line haul facility 
projects at Ft. Bliss to improve general deployment readiness. These 
projects are also competing for funding.   [See page 40.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    Dr. Anderson. The Polish Government agreed to make significant 
structural improvements to its primary training base, Drawsko 
Pomorskie, as well as other existing training areas throughout the 
country. These improvements are primarily focused on increasing the 
readiness of the Polish Armed Forces while providing opportunities for 
U.S. participation. In addition to upgrading Poland's ranges and 
maneuver areas, the Polish Government also agreed to invest in vehicle 
maintenance facilities, living quarters, munitions and fuel storage, 
and joint reception, staging, onward movement, and integration (JRSOI) 
facilities to support U.S. force deployments to Poland. We are working 
with the Polish Ministry of Defence to prioritize the construction of 
more than one hundred identified projects and agreed-upon facilities to 
support the U.S. presence in Poland.   [See page 20.]
     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 30, 2020

=======================================================================
      

                  QUESTIONS SUBMITTED BY MR. CARBAJAL

    Mr. Carbajal. Has the Department been asked by the White House to 
study how quickly it can upload warheads if New START expires? Can you 
commit to sharing the outcome of this study with Congress as soon as it 
is finished?
    Has the nuclear employment guidance changed? If so, when do you 
plan to brief Congress?
    General Hyten told the committee in 2019 that he saw no need to 
alter force levels if New START expires. What reason is there to upload 
additional warheads?
    Dr. Anderson. The White House has asked the Department to study how 
quickly it could upload warheads if the New START Treaty expires. At 
present, the ability of U.S. nuclear forces to deter potential 
adversaries is not at risk as a result of limits imposed by existing 
arms control treaties. However, given the disparity in stockpile 
quantities between the United States and the Russian Federation, 
ongoing nuclear modernization efforts need to continue as planned in 
order to ensure age-related sustainment issues do not undermine the 
effectiveness or credibility of the U.S. nuclear deterrent. If the New 
START Treaty expires in February 2021, the United States has the 
ability to make modest increases to its nuclear force structure by, 
among other things, uploading additional warheads onto currently 
deployed missiles. The dynamics of the security environment in addition 
to Presidential and Departmental policy would guide the specifics of 
any proposed nuclear force structure changes. President Trump signed 
new nuclear employment guidance in 2019 which is currently being 
implemented. Consistent with Congressional reporting requirements 
pursuant to 10 U.S.C. Section 491, DOD will brief Congress on this 
guidance when implementation is complete.

                                  [all]
</pre></body></html>
